<html>
<title> - THE ECONOMIC IMPERATIVE FOR ENACTING IMMIGRATION REFORM</title>
<body><pre>[Senate Hearing 112-154]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-154

        THE ECONOMIC IMPERATIVE FOR ENACTING IMMIGRATION REFORM

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION,
                      REFUGEES AND BORDER SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2011

                               __________

                          Serial No. J-112-36

                               __________

         Printed for the use of the Committee on the Judiciary




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>








                  U.S. GOVERNMENT PRINTING OFFICE
70-996 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

       Subcommittee on Immigration, Refugees and Border Security

                   CHUCK SCHUMER, New York, Chairman
PATRICK J. LEAHY, Vermont            JOHN CORNYN, Texas
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa
DICK DURBIN, Illinois                ORRIN HATCH, Utah
AL FRANKEN, Minnesota                JON KYL, Arizona
RICHARD BLUMENTHAL, Connecticut      JEFF SESSIONS, Alabama
               Stephanie Marty, Democratic Chief Counsel
                 Matt Johnson, Republican Chief Counsel









                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     3
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     5
    prepared statement...........................................   125
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.
    prepared statement...........................................   162
Schumer, Chuck, a U.S. Senator from the State of New York........     1

                               WITNESSES

Arora, Puneet S., M.D., Los Angeles, California on behalf of 
  Immigration Voice..............................................    14
Bridges, Paul, Mayor, Uvalda, Georgia............................    30
Gilbert, Laurent F., Mayor, Lewiston, Maine......................    35
Greifeld, Robert, Chief Executive Officer and President, NASDAQ 
  OMX Group, New York, New York..................................     8
Hira, Ronil, Associate Professor of Public Policy, Rochester 
  Institute of Technology, Rochester, New York...................    16
Roefaro, David R., Mayor, Utica, New York........................    32
Skorton, David, President, Cornell University, Ithaca, New York, 
  on behalf of Association of American Universities..............    10
Smith, Brad, General Counsel and Senior Vice President, Legal and 
  Corporate Affairs, Microsoft Corporation, Redmond, Washington..    12

                         QUESTIONS AND ANSWERS

Responses of Ron Hira to questions submitted by Senator Grassley.    42
Responses of David J. Skorton to questions submitted by Senator 
  Grassley.......................................................    50
Responses of Brad Smith to questions submitted by Senator 
  Grassley.......................................................    56

                       SUBMISSIONS FOR THE RECORD

American Subcontractors Association, Inc., Franklin L. Davis, 
  Director of Government Relations, Alexandria, Virginia, August 
  2, 2011, letter................................................    68
American Engineering Association Inc., Richard F. Tax, President, 
  Nashville, Tennessee, statement................................    70
Arora, Puneet S., M.D., Los Angeles, California on behalf of 
  Immigration Voice, statement...................................    74
Beck, Edward, Bridgeport, Pennsylvania, statement................    85
Brawn to Brains, article.........................................    87
Bridges, Paul, Mayor, Uvalda, Georgia, statement.................   101
Bruey, Jacqueline, Lawrenceville, New Jersey, statement..........   104
Conroy, Donna, Director, Bright Future Jobs, Chicago, Illinois, 
  statement......................................................   105
DallasNews.Com, August 22, 2008, article.........................   108
Fink, Steven, statement..........................................   110
Foster, Lynn, Austin, Texas, statement...........................   111
Freise, Steven, Massapequa Park, New York, statement.............   112
Gilbert, Laurent F., Mayor, Lewiston, Maine, statement...........   114
Gittelson, Robert, Co-Founder, Conservatives for Comprehensive 
  Immigration Reform, statement..................................   122
Greifeld, Robert, Chief Executive Officer and President, NASDAQ 
  OMX Group, New York, New York, statement.......................   135
Heath, Robert, statement.........................................   140
Hira, Ronil, Associate Professor of Public Policy, Rochester 
  Institute of Technology, Rochester, New York, statement........   142
Huber, David, statement..........................................   154
IIUSA, Peter D. Joseph, Exective Director, Chicago, Illinois, 
  statement......................................................   158
Intel Corporation, Peter M. Cleveland, Washington, DC, statement.   160
LA-MAG.com, July/August 2011, article............................   164
Kavanaugh, Brendan, Miami, Florida, statement....................   171
Kritzer, Steven, statement.......................................   173
Marr, Ray L., Austin, Texas, statement...........................   177
McDonald, James, Alexandria, Virginia, statement.................   179
Miller, Christine L., Baltimore, Maryland, statement.............   180
Moustakas, Leonard, Lynbrook, New York, statement................   183
Nelson, Gene A., Unemployed American Citizen Radiation 
  Biophysicist, statement and attachments........................   184
Ochs, Larry, Oceanside, California, statement....................   204
Otto, John G., Tallahassee, Florida, statement...................   206
Palmer, Jack (Jay) B., Jr., Lowndes County, Alabama, statement...   213
Partnership for a New American Economy, memorandum and 
  attachments....................................................   223
Picot, Harrison, Database Administrator, Haymarket, Virginia, 
  statement......................................................   233
Popescu, John, San Francisco, California, statement..............   235
Scott, Damon, Professor of Mathematics, Florence, South Carolina, 
  statement......................................................   236
Skorton, David, President, Cornell University, Ithaca, New York, 
  on behalf of Association of American Universities, statement...   238
Smith, Brad, General Counsel and Senior Vice President, Legal and 
  Corporate Affairs, Microsoft Corporation, Redmond, Washington, 
  statement......................................................   251
Stein, Dan, President, Federation for American Immigration 
  Reform, Washington, DC, statement..............................   262
United Agribusiness League, Richard G. Schmidt, President and 
  Chief Executive Officer, Irvine, California, July 21, 2011, 
  letter.........................................................   265
U.S. Chamber of Commerce, Randel K. Johnson, Senior Vice 
  President, Labor, Immigration & Employee Benefits, and Amy M. 
  Nice, Executive Director, Immigration Policy, Washington, DC, 
  July 26, 2011, joint letter....................................   268
Valek, Brian, Ortonville, Minnesota, statement...................   276

 
        THE ECONOMIC IMPERATIVE FOR ENACTING IMMIGRATION REFORM

                              ----------                              


                         TUESDAY, JULY 26, 2011

                                       U.S. Senate,
                                Subcommittee on Immigration
                             Refugees, and Border Security,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:09 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Subcommittee, presiding.
    Present: Senators Schumer, Franken, Blumenthal, Cornyn, 
Grassley, Hatch, and Sessions.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Chairman Schumer. Good morning, everybody, and our hearing 
will come to order. Senator Cornyn and I will make an opening 
statement, and then we will go right to the witnesses, and 
Senator Grassley has asked to make an opening statement as 
well, and so please do.
    Okay. Anyway, today's hearing is on the economic imperative 
for enacting immigration reform. I am often asked why I am so 
adamant about passing immigration reform. My answer is always 
that I believe there are two issues that will determine 
America's global competitiveness for the 21st century, and this 
is in the long term: Education and immigration.
    Our economic supremacy arose because our schools 
successfully developed America's best minds, and our 
immigration successfully attracted the world's best minds. But 
now the world is far more competitive. Students in countries 
around the world are outperforming U.S. students in math and 
science. At the same time, our competitors are enacting 
immigration policies that offer scientists and engineers from 
around the world up to $250,000 to emigrate in order to deploy 
their talents and skills for the good of our competitors' 
economies. If we do not enact an immigration policy that 
continues to attract the world's best minds, we will cease to 
be the world's economic leader. Not only will our economy be at 
grave risk; eventually our National security will as well.
    Unfortunately, our broken immigration system actually 
discourages the world's best and brightest minds from coming to 
America to create jobs. Here is the problem: Every year, 
according to the Institute of International Education, there 
are about 250,000 foreign students enrolled in our American 
universities to study science, technology, engineering, and 
math. That is known as ``STEM'' subjects. Foreign students 
represent the majority of our degree recipients in these 
subjects. So what happens to these students after they graduate 
from our colleges? Are we putting them to work to invent new 
technologies that would employ American workers? No, we are 
not. Instead, we are telling these folks to return to their 
home countries to compete for a limited number of temporary 
visas known as H-1Bs.
    Even if you are lucky enough to obtain one of these visas, 
the visa is temporary, does not allow your spouse to work in 
the country, and does not permit you to earn a promotion or 
switch jobs unless the Immigration Service approves a lengthy 
second application filed by your employer.
    If you are a smart student at the top of your class and in 
demand globally, would you want to stay in America under these 
circumstances? Unfortunately, the answer is often no. It is 
time for our immigration policy to reward hard work and to 
foster job creation rather than discourage it.
    The immigration proposal that we are working on will ensure 
that the best and brightest students from around the world in 
science and engineering, technology and math, who study in our 
universities can stay here after getting degrees. And, by the 
way, it is good news that the brightest students still want to 
come to our higher education. They do. And we get many more 
applicants than we have people who can be admitted. But then we 
send them home. It just does not make any sense if we want to 
stay the greatest economic power in the world.
    So how do we do this? Well, after they study in our 
universities, they will stay here after getting their degrees. 
We will do this by virtually stapling a green card to their 
diploma. The green card will allow those students to start new 
companies, change jobs if a better opportunity exists, and 
allow their spouses to work in the country. But as this hearing 
will make clear today, fixing our broken immigration system is 
not just about attracting highly skilled immigrants to the 
country. Study after study is showing that even the immigrant 
who comes here with little or nothing in order to make a better 
life for his or her family, just as many of us or our ancestors 
did, is also critical to making America a more vibrant and 
economically successful country.
    As some of our local mayors will discuss here today, 
immigrants are renewing many of our Rust Belt communities that 
were once seen as having no hope for the future. The Federal 
Reserve Bank of Boston recently released a report which said 
that in the top ten ``resurgent cities'' in the Nation, defined 
as Rust Belt cities that have made substantial progress in 
improving living standards for their residents, the immigration 
population in those cities increased from 4.5 percent in 1980 
to 15 percent, more than 15 percent today.
    And a recent study from the Kauffman Foundation showed that 
immigrant-owned businesses jumped from 13.4 percent of all new 
businesses in 1996 to 29.5 percent of all new businesses in 
2010. Just listen to that. Immigrant-owned businesses, new 
immigrant-owned businesses, jumped from 13.4 percent to 29.5 
percent between 1996 and 2010. And these are not big 
businesses. They may be a restaurant. They may be a drycleaner. 
But they employ people and create economic vitality as 
immigrants for generations of America have done.
    So unlike those who attempt to fear-monger the issue of 
immigration, I am not at all concerned that people want to come 
to America. I am much more worried about a day they no longer 
find America attractive.
    I am confident that our distinguished panelists today will 
help us better understand the urgent need we face to reform our 
immigration system in a manner that will grow our economy by 
attracting those who want to come here to start a business or 
to contribute their innovative skills and talents to keep 
America's economy strong.
    The purpose of this hearing: Immigration is a job creator. 
That is the key. And it is vital that we reform our immigration 
system to keep America the greatest job engine in the world.
    I would now like to call on Senator Cornyn.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Well, thank you, Mr. Chairman, for holding 
this hearing. I think it is a very important, and I agree with 
much of what you said in your opening remarks.
    It may seem a little strange, though, to people listening 
to be talking about immigration reform, bringing foreign 
nationals to the United States at a time when our unemployment 
rate is 9.2 percent. But as we all know, there is a scarcity of 
qualified people for many jobs, particularly high-tech, those 
requiring special skills, and those, of course, are the 
target--should be the target of the H-1B program. But we should 
assure every American and all Americans that we will never 
hire, never allow to be hired a foreign national under an H-1B 
program where there is a qualified American ready, willing, and 
able to do that job. And, in fact, that is illegal. But we are 
going to hear today--and I know Senator Grassley has taken a 
particular interest in trying to root out some of the fraud 
associated with this program, and we need to make sure that 
happens.
    But it is hard to ignore the benefits to our Nation of 
attracting high-skilled talent. For example, in Texas, one 
study reports that one out of every five technology companies 
was founded by an immigrant. We all know the success stories of 
Intel, eBay, Yahoo, and Google--American companies founded, in 
part or in whole, by immigrants, which, of course, now employ 
thousands of workers.
    It is a fact that America's lack of a sensible and coherent 
high-skilled immigration policy is causing our Nation to lose 
too many entrepreneurs and job creators to our competitors 
abroad who are more than happy to take advantage of our failure 
to compete effectively for this talent.
    It is also a fact that in order to remain competitive in 
today's global marketplace, U.S. companies must have access to 
a high-skilled temporary labor pool from abroad, which includes 
top foreign graduates who are educated at American 
universities.
    The Federal Reserve Bank of Dallas recently summed it up 
this way. They said, ``The future of U.S. prosperity depends on 
having a skilled workforce. This requires educating the native-
born population and continuing to attract the world's best and 
brightest to the United States. For decades, the Nation has 
been the world leader in attracting skilled immigrants who, 
until recently, had few good alternatives. Today other 
destination countries increasingly recognize the economic 
benefits of these workers and are designing policies to attract 
them, even as immigrants' nations of origin seek ways to entice 
them to return home.''
    The Dallas Fed has also noted that the U.S. immigration 
system has not kept up with global competition, that piecemeal 
fixes have turned the current law into a web of outmoded, 
contradictory, and inefficient quotas, rules and regulations.
    In one example, the number of high-skilled immigrant 
workers admitted on a temporary visa has doubled since 1996, 
but the number of employment-based permanent residence visas, 
or green cards, has remained roughly the same. As a result, the 
wait for employment-based green cards extends now to more than 
a decade.
    ``It is not known how many high-skilled immigrants are 
turned away by the broken system,'' the Federal Reserve says, 
``but the U.S. risks falling behind in the global race for 
talent if immigration laws are not reformed.''
    The economists aptly called this America's policy of 
national self-sabotage. I put forward several proposals in the 
past to try and remedy this problem, including the skill bill 
in 2007 and the Global Competitive Act in 2008. These include 
modest but sensible increases to H-1B temporary worker visas, 
recapture of unused temporary and permanent visas, and 
increased access to green cards for high-skilled immigrants. I 
look forward to hearing from the witnesses on their own ideas 
for addressing this problem.
    In 2006, almost 5 years ago, I chaired a hearing of this 
Subcommittee when my party was in the majority and I was 
Chairman and not Ranking Member. The title of that hearing 
was----
    [Laughter.]
    Senator Cornyn. Hope to return someday.
    [Laughter.]
    Senator Cornyn. The hearing of that Subcommittee then was 
called ``U.S. Visa Policy: Competition for International 
Scholars, Scientists, and Skilled Workers.'' It took place in 
Richardson, Texas, on the campus of the University of Texas at 
Dallas.
    The University of Texas at Dallas continues to be one of 
the Nation's leaders in producing top-notch science, 
technology, engineering, and math graduates. Its graduates 
include STEM students who are U.S. born and a sizable 
percentage of foreign students who are visa holders. Eighty-two 
percent of all UTD graduates earn degrees in science, 
engineering, business, math, and the key disciplines that the 
region needs to compete in the global economy.
    Mr. Chairman, I would ask consent to place a few items in 
the record.
    Chairman Schumer. Without objection.
    Senator Cornyn. First, a report by the Dallas Federal 
Reserve that I cited earlier; second, an op-ed piece by Geoff 
Wurzel in the San Antonio Express New titled, ``Highly skilled 
immigrants should be part of debate;'' and an editorial from 
the Dallas Morning News entitled, ``Exporting jobs; green card 
hassles drive our brightest overseas.''
    [The information referred appears as a submission for the 
record.]
    Senator Cornyn. Let me conclude, Mr. Chairman, by saying I 
could not help but notice that President Obama spoke again to 
La Raza, where he used that forum to criticize Congress for 
lack of action on immigration reform. Indeed, it was in July 
2008 when then-Candidate Obama, before he was President, said 
that, if elected, he would make immigration reform, 
comprehensive immigration reform a top priority.
    Well, I think it is clear, at least to me, that he has not 
done so, and we need to find a way to try to work together to 
solve this particular aspect of our broken immigration system. 
But I am committed once again to working with you to fix the 
entire system, which does not serve the best interests of the 
United States of America.
    Chairman Schumer. Thank you, Senator Cornyn.
     We are joined not only by a member of the Subcommittee, 
but he is the Ranking Member of the full Committee, and so out 
of respect for him in that position, we are going to let 
Senator Grassley to an opening statement. And then we will get 
right to the panel.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. Thank you very much, Mr. Chairman, and 
also I will have some inserts and a short statement I am going 
to give, but I have a longer statement as well, and I would 
like to insert that. And because I do have other 
responsibilities, I may not be back here to ask questions. If I 
do not get back to do it, I would submit questions for answer 
in writing. And I am very glad to be here not only to thank you 
for holding this hearing, but also to recognize President 
Skorton, who is a friend of mine, and who was for 25 or 30 
years at the University of Iowa, including a presidency there, 
before he moved to New York.
    Chairman Schumer. Well, Iowa's loss is New York's gain.
    Senator Grassley. If there is any way we can get him back, 
we will take him back.
    Chairman Schumer. Keep sending the money to Cornell now.
    [Laughter.]
    Chairman Schumer. Anyway, without objection, Senator 
Grassley's entire statement will be read into the record, and 
the inserts that he mentioned.
    [The prepared statement and inserts of Senator Grassley 
appears as a submission for the record.]
    Senator Grassley. For years, our country has struggled to 
find a way forward on immigration reform. Americans are out of 
work, families are being foreclosed on, and businesses are 
suffering. And I agree we must do all we can to improve our 
economic situation. However, I have concerns with the notion 
that increasing immigration levels and enacting legalization 
programs is an answer to the current economic downturn.
    We know it is unlikely that this administration will push 
immigration reform at least in the next year and half. However, 
it is my firm belief that we can find agreement on reforms for 
high-skilled workers, and this hearing is a good first step in 
that discussion.
    I have spent a lot of time and effort in rooting out fraud 
and abuse in our visa programs, specifically the H-1B and L 
visa programs. I have always said these programs could and 
should serve as a benefit to our country, our economy, and our 
U.S. employers. However, it is clear they are not working as 
intended, and the programs are having a detrimental effect on 
American workers. For this reason, and for many years, Senator 
Durbin of Illinois and I have worked in a bipartisan way on 
legislation to close the loopholes in the programs.
    Among other things, the H-1B and L-1 Visa Fraud and Abuse 
Prevention Act would ensure American workers are afforded the 
first chance to obtain the available high-paying and high-
skilled jobs. The bill would strengthen the wage requirements, 
ridding the incentives for companies to hire cheap, foreign 
labor. Our bill would also require companies to attest that 
they have tried to hire an American worker before they hire a 
foreign worker.
    The attention that Senator Durbin, I, and others have put 
on the H-1B program has had an impact already without the 
legislation passing. Our efforts have increased scrutiny and 
forced bad actors to find other ways to enter, live, and work 
in the United States under false pretenses. The increased 
oversight of the H-1B program, for instance, has caused 
businesses to ``think creatively'' to get around the program, 
using both the L and B-1 visa to bypass the requirements and 
protections under the H-1B visa program.
    Recently, this scenario came to light when an employee of 
Infosys filed a complaint alleging that his employer was 
``sending lower-level and unskilled foreigners to the United 
States to work in full-time positions at . . . customer sites 
in direct violation of immigration laws.'' The complaint 
further states, ``Infosys was paying these employees in India 
for full-time work in the United States without withholding 
Federal or State income taxes.'' Infosys, one of the top ten H-
1B petitioning companies, has worked to ``creatively'' get 
around the H-1B program by using the B-1 business visitor visa 
in order to bring in low-skilled and low-wage workers. That 
plaintiff, Jay Palmer, has written a statement, and I ask 
unanimous consent to put that in the record. The courts will 
decide if the activities of Infosys were illegal. But I can 
definitely say that their actions do not comport with the 
spirit of the law.
    Also troubling to me is the Optional Practical Training 
program, often called OPT. This is a program that was created 
solely through regulation. OPT allows foreign students the 
ability to further their knowledge by working in the United 
States for an extra 12 to 29 months before returning to their 
home country. There is no limit on how many can apply for OPT, 
and more importantly, it is the schools and universities that 
principally administer the program. There are very few checks 
and balances, resulting in the potential national security 
risk. We had 95,259 OPT petitions approved in fiscal year 2010. 
More scrutiny must be placed on this program.
    Finally, I would like to address the idea being pushed by 
many immigration advocates and some members in the House of 
Representatives. As part of the solution to America's 
immigration problem, some policymakers have proposed the idea 
of giving foreign students a green card upon graduation. In 
their opinion, this would prevent the loss of the resources put 
into these students. Now, who can argue with that point of 
view? While it is important to keep the best and the brightest, 
getting a degree from U.S. institutions and universities should 
not equate to a fast track to citizenship for all. Should this 
happen, the demand for enrollment in U.S. universities by 
international students would only increase and further erode 
the opportunities for American students. Universities would, in 
essence, become visa mills.
    I will continue to push for more reforms in our immigration 
system to ensure Americans are the No. 1 priority and the 
students are afforded every opportunity that they deserve. And 
I also would further say that part of my unanimous consent 
request was statements of American workers from across the 
country who have written to me on this subject.
    Thank you.
    Chairman Schumer. Thank you, Senator Grassley. The 
comprehensive bill we are continuing to work on would deal with 
H-1B reform in a very significant way. I could not agree with 
you more that there are companies that abuse it. It is one of 
the reasons in the bill protecting the border last year we paid 
for part of that with an increased fee on those companies. They 
did not like it, but I thought it was appropriate.
    Okay. We will now go to our witnesses, distinguished 
panels, both of them. I am going to introduce all five and then 
ask each of them to speak for no more than 5 minutes, and we 
will put your entire statements into the record.
    So from my left to my right, Robert Greifeld is the chief 
executive officer of NASDAQ OMX Group, a position he has held 
since 2003. NASDAQ is the world's largest exchange company with 
trading, technology, and public company service capability 
spanning six continents. It is headquartered in New York City, 
has nearly 2,500 employees, and serves as the marketplace for 
many of the world's largest and most successful technology 
companies and advocates for those companies.
    David Skorton, former president of the University of Iowa, 
is now president of Cornell University, one of the greatest 
universities in the world. He has been president since 2006--
not to the University of Iowa is not, by the way. He was a 
faculty member at Iowa before being president for 26 years, and 
he is past chair of the Business Higher Education Forum, an 
independent, nonprofit organization comprised of Fortune 500 
and other CEOs, leaders of colleges and universities and 
foundation executives.
    Brad Smith is Microsoft's general counsel and leads the 
company's Department of Legal and Corporate Affairs. He plays a 
central role in ensuring that Microsoft fulfills it corporate 
responsibilities and is responsible for the company's legal 
work, its intellectual property portfolio, patent licensing, 
and its Government affairs and philanthropic work.
    Dr. Puneet Arora is the clinical research medical director 
at Amgen. In this capacity, he works on development of new 
medicines for the treatment of osteoporosis and is responsible 
for planning and execution of large multinational clinical 
trials. He has completed 15 years in the United States and is 
still awaiting his green card.
    Dr. Ronil Hira is an associate professor of public policy 
at RIT, the Rochester Institute of Technology, another one of 
the greatest universities in the world, where he teaches 
courses on technological innovation, communications, and public 
policy. He is a licensed professional engineer, a research 
associate with the Economic Policy Institute, and a co-author 
of a book entitled ``Outsourcing America.''
    Gentlemen, all your statements, your entire statements, 
will be read into the record, and we will now start with Dr. 
Greifeld. Welcome.

   STATEMENT OF ROBERT GREIFELD, CHIEF EXECUTIVE OFFICER AND 
        PRESIDENT, NASDAQ OMX GROUP, NEW YORK, NEW YORK

    Mr. Greifeld. Thank you, Chairman Schumer and Ranking 
Member Cornyn, for the invitation to speak to you this morning.
    In May of 2008, my frustration with the state of affairs on 
our immigration policy led me to write an editorial that holds 
true today. It bothers me dearly that Lady Liberty's message of 
welcome no longer resonates and we place quotas, inexhaustible 
red tape, and, in many cases, deportation in the path of the 
best and the brightest who are anxious to contribute to our 
free market economy.
    Since 2008, when I wrote that editorial, three June classes 
have graduated from school, and too many talented people have 
left or been forced to leave this country. Out of about 50,000 
advanced math and science students, those who have a long 
tradition of activities that create jobs, we lose about one-
third, about 17,000 each and every year.
    I fervently believe to help our country Congress should:
    One, see immigration reform as a pressing jobs issue. The 
current legal immigration regime is inadequate and its cost is 
robbing America of the next generation of great companies. A 
sobering fact is that Google, Yahoo, and eBay---many of the job 
drivers of the last 20 years--would likely not be founded in 
America today under the current system.
    Two, we need to debate legal immigration on its own merits. 
Do not link it to reform of illegal immigration laws. Americans 
are losing jobs and opportunity while we let one issue drag 
down the other. I understand and agree that we need to reform 
the entire immigration system, but given the urgency of our 
economic situation, we cannot afford to continue to wait for a 
grand plan that may not be achievable.
    Three, we need to enact a more flexible and stable regime 
for legal immigration. Reform must convey economic priorities 
about job growth and global competitiveness. Increasing H-1B 
visas is simply not enough. We need to admit and keep 
entrepreneurs here so that the creative dynamic of our economy 
is enhanced by the very best skills and minds. The default 
should be ``yes,'' not ``no.''
    This is an issue I am passionate about because I know that 
as a CEO, NASDAQ relies on one critical raw material for its 
economic vitality--entrepreneurs. Entrepreneurs take ideas and 
turn them into companies, and those companies ``grow up'' to 
become listed on NASDAQ. Existing NASDAQ companies hire 
brilliant people who solve problems, invent and improve their 
company, making them stronger and its employment base grow.
    Our economy and NASDAQ itself have directly benefited from 
the contributions of foreign-born talent. Among Fortune 500 
companies, we have found that at least 14 NASDAQ companies have 
foreign-born founders. These companies have created over $522 
billion in market capitalization and employ almost 500,000 
workers.
    Markets, including human capital markets, work best when 
there is certainty. Uncertainty always creates distortions, 
whether it is in the derivatives market waiting on the rules of 
the road from regulators, the equity markets waiting for 
Congress and the President to agree on fiscal policy, or labor 
market participants that look to our restrictive, sometimes 
arbitrary, and unwelcoming immigration system as they decide 
where and where not to take their talents.
    In countries like India and China, they actively recruit 
graduates and qualified researchers for their expertise and 
abilities, paying top salaries and other benefits to get 
graduates to return home to help their economies grow. The 
competition for smart, capable math and science graduates is a 
global one.
    Let me take the job-stealing issue head-on. Opponents of 
enhanced legal immigration argue that when a foreign--born, 
highly skilled immigrant gets a job, American graduates are the 
losers. But my research and experience tell me quite a 
different story. For example, the National Federation for 
American Policy says that for every H-1B worker requested, U.S. 
technology companies increase their overall employment by five 
workers. I was in Silicon Valley last week, and virtually every 
company I met said they had more engineering jobs than 
qualified applicants. These are jobs that are, in fact, 
advertised, including a website, StartUpHire.com, which caters 
to venture capital-backed companies. They have over 13,000 job 
openings posted right now. In this week's San Jose Business 
Journal, I read that the State of California released a June 
employment report that noted in just the San Jose metro region 
Apple had listed 868 jobs, eBay 617, Google 582, and Yahoo 571 
jobs that are not going filled.
    When we keep the best and brightest graduates here, they 
help employment here. Brookings reports that as a result of 
immigration, 90 percent of native-born Americans with at least 
a high school diploma have seen wage increases.
    Companies have little choice about the skill they need to 
hire, but the immigration system can, in fact, determine where 
they locate their employees. Isn't it better for all of us if 
they build their research and development centers here? Many 
companies can, if needed, locate people in Canada, Europe, 
India, or any country that wants those jobs and the benefits 
they bring. Whether in Silicon Valley, Austin, Chicago, or 
anywhere else in the United States, I hear from CEOs that the 
H-1B visa system is inadequate for today's human capital 
marketplace and the backlog for green cards, and what they mean 
to the quality and the uncertainty of the lives of these 
foreign-born employees is a legitimate threat to their 
businesses.
    Employers no longer have to locate jobs and workers because 
of physical capital to support those jobs. Human capital is 
highly mobile, and STEM and other high-tech workers are just a 
plane ticket or Internet connection away.
    I know I am over time here, so what I want to speak to at 
the end is just that we certainly recognize that we need to 
improve the education system. We certainly recognize that we 
need to ensure that these programs are properly policed and 
adequately run. But we have to implore you to find a 
legislative solution to make improvements in this area. Making 
our legal immigration system work for us will raise revenue, 
increase our productivity, create very good jobs, and make us 
more competitive.
    Thank you.
    [The prepared statement of Mr. Greifeld appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Mr. Greifeld.
    Mr. Skorton.

  STATEMENT OF DAVID SKORTON, PRESIDENT, CORNELL UNIVERSITY, 
    ITHACA, NEW YORK, ON BEHALF OF ASSOCIATION OF AMERICAN 
                          UNIVERSITIES

    Mr. Skorton. Good morning, Chairman Schumer, Senator 
Cornyn, and members of the Subcommittee, and I thank Senator 
Grassley for his leadership, friendship, and kind remarks.
    Cornell University, located in Ithaca, New York, with 
campuses or programs in New York City; Geneva, New York; 
Appledore Island, Maine; France; England; Italy; Singapore; 
India; China; Tanzania; Qatar and elsewhere, is the largest and 
most comprehensive school in the Ivy League and is the land-
grant university for New York State. Our enrollment is 
approximately 20,000, with students from every State in the 
Union and more than 120 countries studying under an 
internationally renowned faculty.
    The Association of American Universities, for which I am 
proud to also be speaking, is a nonprofit association of 59 
leading U.S. public and private research universities and two 
Canadian universities. AAU's 59 U.S. members perform 54 percent 
of federally funded university-based research and award more 
than half of all doctoral degrees earned in our country.
    We all want to thank Chairman Schumer for calling this 
important hearing, and I thank you for inviting me to share my 
perspective.
    I have the privilege, Senator, of being a member of the 
National Security Higher Education Advisory Board, a group of 
some 20 university presidents and chancellors, appointed by the 
Director of the FBI to meet with senior officials of the Bureau 
and other agencies to discuss issues of national security 
related to higher education, prominent among which are issues 
related to immigration policies and procedures. Through this 
board I have gained an appreciation of the importance of 
ceaseless vigilance to maintain national security. But I have 
also learned of the need for balance in our approach to this 
volatile set of issues, and I applaud you for seeking that 
balance.
    The issue is a personal one for me. I am a first--
generation American, the son of immigrants. And my father took 
it for granted that through hard work, adherence to the law, 
and an earnest desire to become an American citizen, he would 
create a better life for himself and his children. My own life 
and those of countless other first-generation Americans have 
proven him right.
    But the recent debate, however, suggests that many 
Americans have stopped seeing immigration as an integral part 
of the American dream. We cannot afford to close off the United 
States from the rest of the world, and we must reach a 
consensus on comprehensive immigration reform that balances our 
physical and economic security with the realities of our 
growing immigrant population and our changing national 
workforce.
    American colleges and universities are educating a record 
number of international students. According to the IIE, there 
were 690,000 international students in the U.S. in 2009-10, a 
3-percent increase, and at Cornell currently, 18 percent of our 
student body are international students.
    In the 21st century, the American relationship with 
international students has, of course, become more complex as 
national security concerns have risen. There is a real cause 
for concern, however, if the U.S. does not remain the top 
choice for students from around the world who want to apply to 
graduate studies in science and engineering.
    Contrary to concern expressed by some critics, there are 
not enough qualified or interested American students to fill 
all the slots in STEM undergraduate and graduate programs, nor 
in the workplace.
    The most difficult immigration issues, as you have heard, 
arise when international students graduate and want to enter 
the U.S. workforce. While some students always intend to return 
home, others may want to stay here--to work, to invent, to 
innovate, to start companies, to create jobs, and thereby to 
contribute to the economic growth of our country.
    We know from our career placement offices and alumni 
associations that U.S. companies want to hire Cornell's 
international graduates--not surprising, as you have heard, 
when foreign-born inventors are responsible for a large share 
of companies and startups, and I want to give a quote from a 
colleague of mine, Bill Swanson, Chairman and CEO of Raytheon: 
``Raytheon, like the Nation, depends upon highly educated and 
experienced STEM graduates, many at the doctoral level. Foreign 
nationals with these qualifications, with appropriate 
immigration status, are critical to our country's 
competitiveness.''
    The Partnership for a New American Economy--a national 
bipartisan group founded by New York City Mayor Michael 
Bloomberg that includes more than 300 mayors and business 
leaders--has compiled some impressive statistics, including 
that more than 40 percent of the current Fortune 500 companies 
were founded by immigrants or their children and more than a 
quarter of all technology and engineering businesses launched 
between 1995 and 2005 had an immigrant founder.
    Immigrant STEM graduates help fill projected job shortages. 
McKinsey Global Institute projects that as many as 190,000 
positions for data analytics experts such as industrial 
engineers and mathematicians will go unfilled in the U.S. by 
2018.
    Our immigration policy is right now causing us to lose 
international graduates and other highly motivated individuals 
to countries including England, Australia, and Canada--
countries that encourage and promote immigrant entrepreneurs 
with streamlined visa application processes, more flexible 
pathways to permanent residence or citizenship.
    To sum up, I believe Congress that should pursue four 
imperatives, and I support the administration's and 
specifically Senator Schumer's efforts in this regard.
    Number one, we should create a streamlined green card 
process for international students who graduate with STEM 
degrees from U.S. universities.
    Number two, we should reduce the backlog of skilled 
immigrants waiting to become permanent residents by increasing 
the number of employment-based visas.
    Number three, we should enact policies and procedures that 
allow families to stay together and allow for reasonable visits 
back home without too much red tape upon return.
    And, number four, I believe we should pass the DREAM Act. 
Even though the DREAM Act is not the subject of this hearing, 
it is vitally important that undocumented children who are in 
the U.S. through no fault of their own be given the chance to 
earn citizenship through hard work, either in college or 
military service.
    Chairman Schumer, I thank you again for your work and for 
the opportunity to testify, and at the right time I am more 
than pleased to answer questions.
    Thank you.
    [The prepared statement of Mr. Skorton appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Mr. Skorton.
    Mr. Smith.

   STATEMENT OF BRAD SMITH, GENERAL COUNSEL AND SENIOR VICE 
PRESIDENT, LEGAL AND CORPORATE AFFAIRS, MICROSOFT CORPORATION, 
                      REDMOND, WASHINGTON

    Mr. Smith. Well, thank you, Chairman Schumer, Ranking 
Member Cornyn. It is a pleasure for me to be here. We have long 
worked on comprehensive immigration legislation, and we welcome 
the opportunity to talk again this morning about the issues 
relating to high-skilled immigration.
    Microsoft has subsidiaries in about 120 countries around 
the world. We are one of the most global companies on the 
planet, and if there is one thing we see every day, it is this: 
The world economy has changed. It used to be that people would 
move in search of the right jobs. But, increasingly, jobs move 
in search of the right people. If a country wants to create 
jobs, it has to skill up its people.
    This was underscored by a recent study at Georgetown 
University. It showed that in 1973 only 28 percent of the jobs 
in the United States required a postsecondary education. But by 
2008 that had risen to 59 percent, and the study estimates that 
by 2018 a full 63 percent of all jobs in the United States will 
require a postsecondary education. We need to skill up as a 
Nation.
    And yet we are falling short today. Senator Cornyn, as you 
mentioned, we have a 9.2-percent unemployment rate in the 
country, but in many ways what is even more interesting is 
this: According to the Bureau of Labor Statistics last month, 
the unemployment rate for individuals who have only a high 
school diploma is 10.0 percent. The unemployment rate for 
Americans that have a college degree or more is less than half 
of that. It is 4.4 percent. So, in short, we not only have a 
jobs problem in this country; we have a skills problem. And the 
fundamental question for the country is how to address this 
skills gap.
    Senator Schumer, I think you put it right on the nose. What 
we need to do is two things: we need to invest in education, 
and we need to address immigration. We wholeheartedly agree 
that our top priority should be education. That is why we as a 
company and many other companies in our industry are investing 
our own dollars in helping to improve education in the country. 
That is why Microsoft alone over the last year has announced 
new investments on the order of roughly $100 million to support 
scholarships, to support schools, and to support students.
    And yet, unfortunately, we also see that while education is 
a long-term goal, it is also a long-term process. It is going 
to take a long time to get where we need to go. We need 
immigration, and we need immigration reform in the interim.
    Certainly we as a company see the benefits that come when 
we can create world-leading R&D centers in the United States 
where we employ a large majority of Americans, but bring these 
leading American employees together with some of the best and 
brightest talent from the rest of the world as well.
    As a company, we employ 54,000 people in the United States, 
and they create jobs not only for themselves, but for others in 
the economy as well. Last year, the University of Washington 
estimated that with a 5.81 multiplier effect, the 54,000 
employees of Microsoft create 267,000 jobs elsewhere in the 
U.S. economy. It is the type of thing we can do solely because 
we can bring people of talent together and enable them to work 
in one place.
    If we are going to continue to create these jobs, we need 
high-skilled immigration reform, and in particular, we think it 
is important for this reform to focus on three things:
    First and foremost, addressing the green card backlog that 
you have heard about this morning;
    Second, we think it is important to address and modernize, 
as you have heard, the visa system for students so that they 
have greater ability and greater incentive to stay in the 
United States;
    And, third, we need to ensure that our temporary visa 
programs remain healthy, that we address fraud, that we prevent 
abuse, but that we also ensure that demand and supply move 
forward together.
    Ultimately, we want to create more jobs in this country. 
Microsoft spends more money on research and development than 
any other company in the world--$9.6 billion. Today we spend 83 
percent of that money to create jobs in one country--the United 
States. We want to continue to create jobs in this country. We 
need the help of this Congress to do so.
    Thank you.
    [The prepared statement of Mr. Smith appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Mr. Smith.
    Dr. Arora.

STATEMENT OF PUNEET S. ARORA, M.D., LOS ANGELES, CALIFORNIA, ON 
                  BEHALF OF IMMIGRATION VOICE

    Dr. Arora. Distinguished Chairman Schumer, Ranking Member 
Cornyn, and distinguished members of the Committee, it is a 
moment of great privilege for me and a moment of great 
education for me to be here in front of this august panel on 
behalf of Immigration Voice and really on behalf of highly 
skilled workers and their families that are patiently awaiting 
permanent resident status in the United States.
    Immigration Voice is a grassroots organization of highly 
skilled immigrant workers that have come together to advocate 
for change in the current system. I thank you deeply for this 
opportunity to present my views.
    I would like to address with you the problems faced by 1 
million highly skilled immigrant workers and their families who 
live and work in America, who see themselves as future 
Americans, and have been gainfully employed for a decade or 
more, but find themselves in lines for green cards. Our 
community has invested in America with diligence, innovation, 
productivity, with our assets and with our future--our children 
who were born in the United States.
    In 1996, I began a medical residency program at the 
Southern Illinois University School of Medicine in Springfield, 
Illinois. This was followed by a fellowship in endocrinology, 
diabetes and metabolism at the New York University School of 
Medicine, thus moving me to one of the greatest cities in the 
world.
    This was followed by a fellowship in advanced diabetes at 
the Mayo Clinic in Rochester, Minnesota, the greatest center 
for endocrinology in the world and a dream come true for me. I 
was awarded a master's of biomedical science degree in clinical 
research by the Mayo Graduate School in 2005.
    In the year 2003 I joined clinical practice with the 
HealthPartners medical group in St. Paul, Minnesota, and took 
up significant teaching responsibilities and was appointed 
assistant professor of medicine at the University of Minnesota 
Medical School. My practice in a medically underserved area 
with a substantial population of indigent patients qualified me 
for a National Interest Waiver. However, a harsh interpretation 
of the statute by USCIS prevented me from this until the year 
2007, when it took a lawsuit to finally overturn the 
immigration agency's position.
    In late 2008, I was offered the position of clinical 
research medical director at Amgen, the world's largest 
biotechnology company. I was able to accept this offer only 
because of a small window of relief offered in July of 2007 
that allowed me to take work authorization. Without this, it is 
likely that I would not have made it to California. Many of my 
colleagues at Immigration Voice were not so fortunate, and to 
this day they lack this kind of job mobility.
    In June this year, I celebrated 15 years of life in 
America. My green card application meanwhile is gathering dust 
somewhere. Let me take a moment to tell you why that is so.
    Congress has allotted 140,000 employment-based green cards 
for immigrant workers and for their families every year, but no 
country can receive more than 7 percent, which makes less than 
5,000 in a year across all skill categories regardless of size, 
population, and ability to provide skilled workers. As a 
result, those in our community with entrepreneurial ambitions 
are held back, and their energies are dissipated. I, therefore, 
respectfully recommend that this panel consider the removal of 
per country caps in the employment-based system.
    An independent task force on immigration policy for the 
Council for Foreign Relations has specifically recommended 
eliminating the nationality quotas for skilled workers. The 
benefit of this measure would accrue to only one Nation in the 
world--the United States of America.
    I would like to respectfully ask this panel to consider the 
recapture of unused green cards that number over 300,000 across 
the family and employment-based categories. Many of you--and 
Senator Cornyn and Senator Schumer, both of you--have proposed 
innovative solutions which I wholeheartedly support, including 
exemptions for U.S. STEM advanced degree graduates, exemptions 
for family members, from numerical quotas. Senator Conrad has 
proposed a bill that would exempt physicians that provide 
service in medically underserved areas, which is in the 
national interest.
    Frustration with the U.S. immigration system sent Wharton 
graduate Kunal Bahl back home in 2007 when he went and founded 
snapdeal.com. This is a rapidly growing company with over $20 
million in annual revenue, over 400 workers, and growing at the 
rate of 70 workers a month. This, India's equivalent of 
Groupon, has major U.S. venture capitalists like Vinod Dham, 
the father of the Intel chip, investing significantly in it. 
Reports from India and China suggest that this is not an 
isolated example; this is a growing trend.
    We often hear concerns that foreign-born workers are taking 
jobs and are stalling the economic recovery. Instead, I am here 
to represent a community that has held steady employment for 
years now in areas with widely documented workforce needs, as 
in my case. A study conducted by Duke University concluded that 
between 1995 and 2005, 25 percent of startups in Silicon Valley 
had at least one immigrant founder and generated more than $52 
billion in sales in 2005 and created just under 450,000 jobs.
    It is clear that highly skilled immigrants are net job 
creators, and they add more jobs to this economy than the jobs 
they occupy. We have tied our futures to the U.S. economy and 
our children's futures as well. Therefore, the growth of 
America's economy and the availability of jobs in America is of 
great significance to all of us. We want nothing more than to 
see America prosper and grow while remaining the most welcoming 
Nation on the face of the Earth.
    On behalf of Immigration Voice, again, my sincere gratitude 
for this opportunity and for the patient hearing you have given 
me today.
    [The prepared statement of Dr. Arora appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Dr. Arora.
    Now, finally, last but not least, Dr. Hira.

 STATEMENT OF RONIL HIRA, PH.D., ASSOCIATE PROFESSOR OF PUBLIC 
 POLICY, ROCHESTER INSTITUTE OF TECHNOLOGY, ROCHESTER, NEW YORK

    Dr. Hira. Thank you, Chairman Schumer, Ranking Member 
Cornyn, and the members of the subcommittee, for inviting me to 
testify here today. I have been studying high-skill immigration 
policy for more than a decade, so it is a great opportunity for 
me to share some of my thoughts on its impact, our current 
policy, its impact on the American economy, American workforce, 
and competitiveness and innovation policy, which I study also.
    I have concluded that our high-skill immigration policy, as 
currently administered and designed, does more harm than good. 
To meet the needs of both the U.S. economy and American 
workers, the H-1B and L-1 visa programs need immediate and 
substantial overhaul.
    The goal of these programs is to bring in foreign workers 
who complement the American workforce. Instead, loopholes have 
made it too easy to bring in cheaper foreign workers, with 
ordinary skills--these are not specialized skills, these are 
not the best and brightest; these are ordinary skills--who 
directly substitute for rather than complement American 
workers. The programs are clearly displacing and denying 
opportunities to American workers.
    The H-1B and L-1 have serious design flaws, and legislation 
is needed to fix them. Administrative changes alone, such as 
stepped-up enforcement, while necessary, are simply not 
sufficient to correct the problems. I will just briefly 
highlight a few of these design flaws that we have in the 
programs.
    First, the programs allow employers to legally bring in 
foreign workers at below-market wages, so you can legally bring 
in cheaper workers to substitute for American workers. How do 
we know this? Well, employers have told the GAO that in some 
cases they do that, so they have been explicit about this. And 
54 percent of the H-1B applications were for the lowest wage 
level, the 17th percentile. So if you think about that on a 
scale, that is hardly the best and brightest being paid the 
17th percentile.
    In the case of the L-1 program, it has no wage floor at 
all. There are no wage requirements. By far, the largest 
sending country for L-1 workers is India, where typical wages 
for engineers is a mere $10,000 per year. So you can pay home-
country wages and bring in L-1 workers instead of hiring 
American workers. So if you think about the differential 
between an $80,000 a year American engineer versus a $10,000 a 
year engineer from India, you can imagine the kind of arbitrage 
opportunities and also why these companies that are exploiting 
these loopholes are extraordinarily profitable--much more 
profitable than companies that are hiring American workers.
    Second, the programs allow employers to bypass qualified 
American workers and even outright replace American workers 
with H-1Bs and L-1s. News reports indicate that American 
workers are being replaced by H-1B visa workers in companies 
such as Wachovia, A.C. Nielsen, and Pfizer. This is at a time 
when the unemployment rates for STEM fields remain very high, 
and so contrary to some of the discussion here this morning, in 
fact, the STEM job market is mired in a jobs recession like the 
rest of the country. The unemployment rates are twice to three 
times what we would expect at full employment, so instead of 2 
percent or 2.5 percent, they are more like 5 percent, 4.5 to 5 
percent. So they are mired in a jobs recession just like the 
rest of the country.
    According to the IEEE-USA's analysis of Labor Department 
data, there are more than 300,000 unemployed engineers and 
computer scientists. Given the poor job market for STEM fields, 
being forced to train your foreign replacement is particularly 
egregious at this time.
    The third flaw I would point out is that because the 
employer rather than the worker holds the visa, an H-1B or L-1 
worker's bargaining power is limited, and they can easily be 
exploited by employers. One consequence of all of these issues 
is that it provides an unfair competitive advantage to 
companies specializing in offshore outsourcing, speeding up the 
process of shipping high-wage high-tech jobs overseas. It has 
disadvantaged companies that primarily hire American workers, 
forcing those firms to accelerate their own offshoring. For the 
past 5 years, the top H-1B and L-1 employers are using the 
programs to offshore tens of thousands of high-wage, high-
skilled American jobs. Using the H-1B program to offshore is so 
common, it has been dubbed ``the outsourcing visa'' by India's 
former Commerce Minister.
    Simply put, the U.S. Government is subsidizing offshoring 
through the current H-1B and L-1 regimes. As former Congressman 
Bruce Morrison, who was the architect of the H-1B program, put 
it, ``There is no reason why the Government should have a thumb 
on the scale to actually speed up the process of outsourcing 
these jobs.''
    Even more disturbing is that many American high-tech 
workers and students believe the program and Government policy 
purposely undercuts their careers. The program has lost 
legitimacy amongst these critical workers. American tech 
workers are leaving the field and telling students to stay 
away. This threatens the country's capacity to innovate and 
create jobs for the economy.
    In conclusion, let me say that I believe the United States 
benefits enormously from high-skilled permanent immigration. We 
can and should encourage the best and brightest to come to the 
United States and settle here permanently. But our high-skill 
immigration policy is failing on both accounts.
    Thank you.
    [The prepared statement of Dr. Hira appears as a submission 
for the record.]
    Chairman Schumer. Thank you, Dr. Hira, and I want to thank 
all the witnesses for their testimony. We will limit the 
questioning period to 5 minutes, so I will ask the witnesses to 
try to limit their answers.
    First, to Dr. Greifeld, just tell us some of the types of 
jobs at NASDAQ that have been done by high-skilled immigrants 
where they have made a really important contribution to your 
company that you would not have gotten from other sources.
    Mr. Greifeld. Speaking for NASDAQ ourselves as an employer, 
we take great pride in our technology where we are basically 
beyond the limits, what is known is commercial computing 
capability. We have the ability to process over a million 
transactions a second, in about 50 milliseconds. And when we 
look at our development team that is responsible for that core 
activity, it is about 60 people of which 20 of them are foreign 
born, and those people are certainly critical. And we certainly 
cast a wide net to find that unique set of talent to allow us 
to build these systems which are deployed globally.
    Chairman Schumer. Thank you.
    To Dr. Skorton, there has been an argument that immigrant 
students in our schools are taking slots from other capable 
American students. Can you address that? I think Senator 
Grassley alluded to that. Can you address that argument?
    Mr. Skorton. Yes, and thank you, Senator. It is a complex 
issue, but my impression after 30 years in higher education at 
multiple institutions is that that just is not true overall in 
the high-skill areas that we are talking about. But I also want 
to take advantage of the question to make a couple of points 
about additional advantages that international students bring 
to our campuses in favor of the positive effects on American 
students who are their classmates.
    Students from other countries contribute enormously to the 
cultural diversity of the campus, and in an age, as you have 
heard, where globalization has actually affected the way 
companies work, not just a catch phrase but actually a way of 
living, our students need to have cultural competencies that go 
far beyond America's borders, and international students add to 
that cultural competency.
    They also add an alternative perspective on many, many 
issues that I think broadens debates and puts our own students 
in a better position to go forward with their own international 
leadership.
    And, finally, we do have a challenge in the pipeline for 
not only STEM graduates but for other high-tech areas in the 
American K-12 system.
    And even though it has not been the immediate focus of this 
panel today, I think it is important to say that one of the 
other areas that needs to go hand in hand with immigration 
reform is continued work on the STEM pipeline in K-12 so that 
there will be a better balance of available and qualified 
American students for these jobs and so we will not have the 
structural unemployment that was mentioned by the last speaker.
    I also want to take advantage and just a quick commentary 
to resolve what I think might be apparently to the panel a 
conflict between the first speaker and the last speaker about 
whether or not there actually are jobs going unfilled because 
of lack of skills. I believe there are, and I believe an 
unemployment rate, a raw unemployment rate, is too gross a 
measure to answer the question: Do we have the right skill 
match with the jobs that are going unfilled?
    Chairman Schumer. Well, in your region we have three great 
engineering schools, two of which are represented here--Cornell 
and RIT; there is RPI where I believe one of the witnesses 
attended--turning out engineers, and Lockheed Martin needs 
engineers in Syracuse, and they cannot get all the engineers 
they need right in that area.
    Mr. Smith, let us say we were no longer--let us say we did 
not change our immigration policy. How would it affect jobs at 
Microsoft, both here and abroad?
    Mr. Smith. Well, right now we at the company have over 
4,500 jobs that are open. Over 2,600 of those jobs are in the 
computer science and engineering fields. I think if we do not 
have immigration reform, you know, what we are going to see is 
a continuing pressure by technology leaders, especially in our 
industry, to put more jobs in R&D centers in other places.
    Chairman Schumer. You mean overseas.
    Mr. Smith. Overseas, outside the United States. We opened a 
development center in Vancouver, British Columbia, a few years 
ago precisely because we could not get sufficient visas for the 
people we had hired. And when we did that, the premier of 
British Columbia, the equivalent of their Governor, looked at 
us and said this: ``You all have a problem. Your Government 
does not like your foreign employees. But I do. Bring your jobs 
here.''
    Chairman Schumer. Say no more.
    Dr. Arora, first, how long would it take you, waiting in 
line because the Indian percentage is only 7 percent, to get 
your green card? How many years more at present rates?
    Dr. Arora. Senator, I have to say that this is one of the 
most--this is the $64 million question. There are many 
thousands of people ahead of me in the line today.
    Chairman Schumer. We estimate about 8 more years.
    Dr. Arora. That could well be possible.
    Chairman Schumer. That just makes no sense.
    Dr. Arora. It is 2,800 a year, including----
    Chairman Schumer. No sense. Okay. You make a very good 
point. And do you have any estimates on the number of people 
that would open their own companies here in the U.S. but cannot 
because of the broken immigration system we have?
    Dr. Arora. Senator, I think there are many people in our 
community who have entrepreneurial ambitions. I have run across 
many examples of these on a daily basis. I have a colleague who 
was a few years ahead of me in medical school, a few years 
ahead of me at Mayo, and then joined Amgen a few years ahead of 
me. I almost feel like I am following him around the world. He 
has now opened up his own small biotech venture in Thousand 
Oaks and lives near me, employs people, and is doing the most 
innovative work.
    I know that at Immigration Voice we hear every day that 
there are many who would like to open small businesses and 
simply cannot because of this status in limbo.
    Chairman Schumer. Thank you. Okay. I have exceeded my time 
by a little bit, so I will stop my questions now.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    About 85 percent of U.S. green cards go to family members 
of U.S. citizens or permanent legal residents, people seeking 
humanitarian refuge and diversity immigrants who come from 
countries with low rates of immigration. So that leaves us with 
15 percent of the visas going to people based on their work, 
and indeed, half of the 15 percent, roughly only about 7 
percent, go to principal workers, with the vast majority of 
those highly skilled workers.
    As the Dallas Fed report says, ``No other major developed 
economy gives such a low priority to employment--based 
immigration.''
    So my question for the panel is: Do you think we ought to 
give, in the interest of energizing our economy, more emphasis 
to employment-based permanent immigration? Or should we 
maintain the status quo? Maybe, Mr. Greifeld, do you have a 
view about that?
    Mr. Greifeld. I certainly do. Certainly when you look at 
the situation, we had H-1B first at 195,000, and we would 
advocate for going back to that limit. With respect to the 
employment-based visas, to me, reading through it, there are 
just too many categories, and we need to simplify that and look 
at it as a number that certainly should not include the 
families that come along with the person who is working. And we 
have to recognize when somebody is working and contributing to 
this economy, that is a good thing and should be a faster path 
for them to have permanent status in this country.
    Senator Cornyn. I suspect I will get similar answers from 
others on the panel, so let me just move on to another topic.
    The Economist said there was a time when ambitious 
foreigners had little choice but to put up with America's 
restrictive ways. Europe was sclerotic, and India and China 
were poor and highly restrictive, but these days the rest of 
the world--and I am paraphrasing--is opening up and competing 
with the United States for these highly skilled workers.
    Mr. Smith, maybe you would be a good candidate for this 
question. What exactly are nations like Canada--you mentioned 
your Vancouver facility, but I would include New Zealand, 
Australia, the U.K.--what are they doing differently than the 
United States is to attract these best and brightest foreign 
workers?
    Mr. Smith. Well, ironically, I think the single thing that 
has happened the most often is this: The rest of the world sort 
of figured out what was working in the United States, and they 
replicated it even as we perhaps stepped away. So, in fact, we 
see wages going up quite quickly in our industry for engineers 
around the world. We see cities, States, and countries doing 
more to make development centers attractive, putting incentives 
in place to attract companies. We see some Governments really 
changing their visa policies to make it easier for students to 
continue to stay and get a job, making it easier for spouses to 
work sooner in the process, to accelerate the path to the 
equivalent of a green card and eliminate or reduce the kind of 
legal uncertainty that we increasingly feel here. So things 
have become much more competitive.
    Senator Cornyn. Dr. Hira, you talked about the problems 
that we have with current administration of the H-1B program. I 
cannot think of anything that would sabotage our desire to try 
to fix this broken system and to do what is in the best 
interests of the United States and certainly our economy than 
examples of people gaming the system, which you have talked 
about. Do you feel like Congress has the capacity and ability 
through new legislation to fix the broken parts of the system 
that allow people to game it while preserving the benefits of 
attracting these best and brightest workers?
    Dr. Hira. Yes, absolutely. I think there are definitely 
proposals that have been introduced, in fact, in the last 
Congress by Senators Grassley and Durbin, who are both members 
of this Subcommittee, S. 887, which would go a long ways to 
actually fixing many of the--closing many of the loopholes that 
I mentioned earlier.
    Let me also just address the U.K. Interestingly enough, the 
U.K. has actually tightened up their work visa program quite 
significantly with the new coalition government, and when I met 
with the Migration Advisory Committee, which is an arm of the 
government that advises the government on immigration issues, 
they were shocked that our L-1 program, our intra-company 
transfer, multinational transfer program does not have a wage 
floor. They were just flabbergasted.
    Senator Cornyn. Mr. Chairman, I think one of the things 
that we might want to consider in working together on 
legislation here is sort of a rheostat or way to power up or 
power down the system in times of a booming American economy 
and times when our economy is not doing as well. But I dare say 
that between you and me and the members of this Committee, if 
we were agreed to deal with this problem, we could fix this. We 
could fix this. I am not sure what the prospects are for 
comprehensive immigration reform because of the credibility 
problem that Congress has when it comes to various aspects of 
it. But this is an area I think we could fix working together.
    Chairman Schumer. I certainly think the area has to be 
fixed. One of the problems we have seen in the past--we will 
see if it remains in the future--is when you do not do 
comprehensive reform, the people who are not included say, ``I 
am not going to let a bill go forward unless I am included.'' 
So that has been the old dilemma.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Senator Schumer. Thank you 
for holding this hearing and for your leadership, longstanding 
leadership in this area, and thank you to the witnesses who 
have come here today on this critically important topic. We 
hear about it every day. Connecticut has a number of companies 
which, like Microsoft, have openings but are looking for folks 
with the skills to fill those openings--United Technologies and 
General Electric and all of the great companies located in 
Connecticut--which leads me to my first question.
    Mr. Smith, you know, your observation that jobs follow the 
talent reminds me of the National Venture Capital Association 
which commissioned a study entitled ``American Made: The Impact 
of Immigrant Entrepreneurs and Professionals on U.S. 
Competitiveness,'' a study that indicated that immigrant-
founded companies have generated more than half of the 
employment by United States public venture-backed high-tech 
manufacturers. So entrepreneurs coming to this country are the 
source of employment, new jobs that are created when they 
create new companies.
    I wonder if you could talk about the two or three revisions 
in immigration law that you think would enable us to attract 
more entrepreneurs as well as individuals to fill those 4,000 
openings that you mentioned at Microsoft.
    Mr. Smith. Certainly. Thank you, Senator Blumenthal. I 
think the real key today is to focus on green cards, and, in 
fact, I think that might be something that most or all of us 
even share on this panel. We have such a backlog of green 
cards, and as you have heard, the fact that we have a per 
country cap is a real problem.
    We have a huge backlog in the country today, especially for 
people from a country like India, and that is discouraging them 
from staying here. It means their spouses cannot work. It is 
creating incentive for them to return home, create companies, 
and create jobs in other places. So I would say priority No. 1 
really should be to address the current green card backlog.
    Then the other point I would make is, as you have heard, 
there is a huge amount of benefit that would come from putting 
graduates of American universities, especially in high-demand 
fields, the so-called STEM fields, for example, on a path to 
green cards. That would give them the incentive to put down 
roots here. It addresses a lot of the issues that people have 
been expressing concern about with respect to temporary visas. 
It would strengthen the country's economy.
    Senator Blumenthal. And I gather from your testimony, Dr. 
Skorton, that you would agree on a number of those points.
    Mr. Skorton. Yes, Senator Blumenthal, I would definitely 
agree with the points, and I want to say again, at the risk of 
redundancy, that the beauty of what you are talking about is 
that it is comprehensive. And I believe that, as Dr. Hira has 
mentioned, it is very important to deal with inadequacies and 
rooms for loopholes in the current system. It is very, very 
important to do a better job of matching skills needs with 
skills production.
    And, third, I think as Senator Cornyn mentioned, it is very 
important to make the system inherently flexible enough to deal 
with different industries and different eras. And just because 
I have garnered the floor briefly, I will say again that even 
though it is not necessarily in the purview of this particular 
Committee, it is important that we all, all Americans, work 
toward improving the STEM pipeline in K-12 education so that 
our successors in years to come will not be dealing with this 
very frustrating problem.
    Senator Blumenthal. Well, I appreciated your mention of 
that point and also of the DREAM act, even though it is not 
directly on point today.
    Mr. Greifeld, from your experience would lifting the caps, 
the per country caps, also be something that we should do?
    Mr. Greifeld. Definitely. As I mentioned in my testimony, I 
was in the Valley last week, and I met during my time there 
about 24 or 25 different CEOs of high--technology companies. 
And these are companies with active job searches, active job 
openings for obviously highly qualified engineering talent, and 
this talent is fundamental to their growth. And in terms of the 
ripple effect in terms of employment, it is real. The openings 
are real, the ripple effect is real, and we have to respond to 
that as soon as we can and allow them to hire these people, 
create the ripple effect, and, you know, obviously address in 
some way our economic issues that we face today. So we need to 
move beyond that. And these numbers are obviously artificial. 
There has to be some way, as I think Senator Cornyn mentioned a 
rheostat, where it is geared to actual demand here. So we 
cannot have an arbitrary number. We have to respond to the 
real-life situation on the ground.
    Senator Blumenthal. Well, again, my time has expired, but I 
want to thank all of you for being here, and I look forward to 
continuing to work with you. Again, I appreciate Senator 
Schumer's leadership in this area. It has been great.
    Chairman Schumer. Thank you, Senator.
    Senator Grassley.
    Senator Grassley. Thank you, Mr. Chairman, and thanks to 
all the panelists. I am sorry I missed your testimony, but 
obviously we have it in writing.
    I have some questions. I will start with Dr. Hira. In your 
testimony you described how the loopholes in the high--skilled 
guest worker program have eased the way for companies to bring 
in cheap foreign labor who directly substitute rather than 
complement workers already in the United States. So my first 
question is for you to rebut the assertion that some, including 
your co-panelist Brad Smith, have made that the U.S. does not, 
in fact, have enough highly skilled workers.
    Dr. Hira. Well, the data just does not support that 
assertion by Mr. Smith. The unemployment rates, as I mentioned 
earlier, are very high. In fact, they are higher for STEM 
graduates than they are for all college graduates. So unless 
you are going to argue that liberal arts majors are somehow in 
short supply, it is hard to argue this. The unemployment rates 
are twice to three times what we would expect. Now, some of 
this is a cyclic phenomenon. It is part of the jobs recession 
that the whole country is facing right now.
    There are always cases where there are shortages of very 
narrow occupations, and let me give you a very good example of 
this: petroleum engineering. What we saw was the market worked. 
Wages went up from about $60,000 to $86,000, and what happened? 
Well, enrollments went way up within universities in petroleum 
engineering, filled mostly, almost exclusively, by Americans 
into those programs. So markets work when you let them work.
    By using these H-1B and L-1 programs, what you are really 
doing is intervening in the normal functioning of the labor 
market, and with that privilege should come some 
accountability.
    Senator Grassley. Again, Dr. Hira, we have seen trends in 
large corporations where they are finding ways to circumvent H-
1Bs besides using and L and B visa. What other ways are 
companies obtaining foreign workers? And is this something that 
deserves more scrutiny?
    Dr. Hira. One of the things that is interesting about this 
in the way the regulations work--and I do not know enough about 
it because I do not think it has been studied. But many of the 
temporary workers come in and do not work directly for the 
clients. They may not work for Microsoft or for one of the 
large American companies. What they do is they work for 
contractors, and by doing that, through that process of 
outsourcing, they are able to then circumvent some of the non-
displacement and other regulations. At least this is my 
speculation. I do not know of anybody who has actually studied 
it within the Government or outside the Government to see how 
this process works. But definitely there are problems there, 
and that is something that needs to be scrutinized.
    So one has to not just look at the direct workforces of, 
let us say, Microsoft but also the people that they contract 
with. For example, Infosys does all of their tech support and 
services.
    Senator Grassley. Mr. Smith, Microsoft is a real employment 
machine, so we have obviously got to be cognizant of what you 
say about it, but I have some questions in regard to H-1B. An 
issue that has been raised about H-1B and L-1 visa programs is 
employers are not required to demonstrate that qualified 
American workers are, in fact, available. And, of course, I 
know through visiting with you and other people that work for 
you that you and other companies oppose Grassley-Durbin because 
it requires attestation that an employer recruit qualified 
Americans first.
    Why is it so much to ask for your company and others to 
look for American workers first and foremost? And a second 
question: Would Microsoft support a requirement for companies 
to first attest and actively recruit American workers before 
they resort to foreign labor?
    Mr. Smith. Well, Senator Grassley, we appreciate the 
opportunity to have an ongoing conversation. As you know, there 
are a number of steps in the immigration process where one has 
to have certain attestations, one has to jump through certain 
hoops, one has to post information on the Department of Labor's 
website. We would not think it would be helpful to inject into 
the labor market yet more bureaucratic hurdles that make it 
harder to hire employees. We do not pay foreign nationals any 
differently from the way we pay U.S. nationals, and our wages 
are not cheap. We and other leaders in our industry today are 
hiring in the computer science and engineering fields right out 
of college, and people who get a diploma 1 day are able to 
start work the next day with a salary and a stock grant in 
excess of $100,000. I think there are a number of us who might 
not have gone to law school if we had realized that future.
    Senator Grassley. I am done, but I did have a question for 
Dr. Skorton that I will give----
    Chairman Schumer. Without objection, any member of this 
panel, those here or not here, can submit questions in writing, 
and there will be a week to return those.
    Senator Grassley. Thank you.
    Chairman Schumer. Thank you, Senator Grassley.
    Chairman Schumer. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Dr. Arora, thank you for being here and thank you for your 
clinical work in Minnesota. You have made a difference in the 
lives of countless poor Minnesotans without reliable access to 
medical care.
    First, can you give me a rough estimate of how many 
Minnesotans you have served as a physician in the course of 
your career?
    Dr. Arora. Just to be clear, you are asking me about my 
practice as a physician, Senator?
    Senator Franken. Yes.
    Dr. Arora. I started practice as a physician--well, we 
should go back a little bit. I was a medical resident for 3 
years where I practiced as a physician, but as a resident 
physician. I did another 2 years at NYU at Bellevue Hospital 
and the Manhattan Veterans Affairs Medical Center. Following 
this, I was in Rochester, Minnesota, at the Mayo Clinic for 2 
years doing a fellowship in advanced diabetes, although I have 
to say that a rather good section of those 2 years was really 
spent doing clinical research. That was a lot of my research 
training.
    I then spent time from July of 2003 until December of 2008 
with a full-time practice at Regions Hospital and its 
affiliated clinics with the Health Partners Medical Group.
    In December of----
    Senator Franken. I was just at Regions this weekend--at a 
Regions, yes.
    Dr. Arora. And in December of 2008 I moved to a clinical 
research position at Amgen, so I have had a 2\1/2\ year hiatus, 
but as we speak, I am actually preparing to go back to work at 
a local volunteer clinic. I feel the need to get back a little 
bit to my practice roots.
    Senator Franken. And I know your path to a green card has 
been frustrating and is still not complete. Can you describe 
the challenges you face and how having to deal with those 
challenges has affected your ability to focus on your clinical 
work?
    Dr. Arora. Senator, there are a number of things that do 
not occur to one intuitively when you think of what happens 
when you are in the state where you do not have a green card 
but you are waiting for one. I have been through a number of 
different phases. I was on a J-1 exchange visitor visa for many 
years when I was training. That visa would run out every year, 
even though I was in a 3-year program or a 2-year program. 
Every time I traveled home, I would spend--out of the 8 days I 
would get after traveling the long distance, I would spend 2 
days preparing and going to the embassy to get visa stamp. I 
never knew when they would decide, as they do very commonly 
these days, to just put me in some kind of administrative 
processing and hold me for 3 months, maybe getting me to lose 
my position. I would get a stamp, but because my academic year 
was finishing in July and I visited in February, it would 
expire in July.
    There were all kinds of hurdles there, but that is not the 
least of it. These days my driver's license expires every so 
often. I find that I am either applying for a driver's license 
which is expiring or for work authorization which keeps 
expiring or for an advance parole so that I will be able to 
travel to work or home on a near continuous basis because 
something or the other always seems to be going away because I 
do not have a green card.
    I applied for a mortgage to buy a home, which I was 
fortunate to be able to do eventually, and had to pass some 
serious hurdles because I had employment authorization and the 
statute--and I understand exactly why--said you had to have 
either a valid visa or a green card, and nobody quite 
understands the state of limbo that many of us exist in. It 
seems to be a vacuum.
    I have tried to buy disability insurance just to make sure 
if something unfortunate were to happen my family and I would 
be cared for, and I have been told that if I am not a permanent 
resident I cannot do that.
    I have friends who have wanted to adopt children and could 
not because they do not have permanent residence.
    So there are a number of issues like this where we are held 
back, and, you know, we spend a lot of time and energy as a 
community dealing with these little things in daily life which 
seem so natural to everyone else, and I think they do take away 
from our efforts at practice and other work.
    Senator Franken. Thank you. I know that if you worked at 
Regions and at Mayo, you are a very, very fine doctor and 
clinician.
    Mr. Skorton, you point out that nearly half of all recent 
graduate degrees awarded by U.S. universities in science, 
technology, engineering, and math were awarded to foreign 
nationals, and this means that international students who 
receive their education in Minnesota, for example, often must 
travel to another country to make use of that knowledge instead 
of contributing to the economy of the State that educated them.
    I think it would be good to keep those folks in Minnesota 
where they are able to contribute to our economy. How would 
States that educated international students benefit 
economically from national immigration reform?
    Mr. Skorton. Thank you, Mr. Franken. I would like to first 
of all say that, as a long-time Iowan, I have great respect for 
the wonderful work done in the great State of Minnesota, one of 
the only places that we could think about that was even colder 
than the State of Iowa.
    Senator Franken. And we have great respect for the State of 
Iowa.
    Chairman Schumer. Let the record show he is from upstate 
New York.
    [Laughter.]
    Mr. Skorton. This is a very, very important point that you 
have raised, and I think that earlier comments I made but also 
those of others on the panel have indicated the importance of 
utilizing the mechanism that you talked about to improve the 
economy locally based not only on the ability to fill those 
jobs but to start companies and also to invent things that 
others can use to start a company or that established companies 
can use to move farther down the line. So by all these 
mechanisms, I think they are very, very important, and I think 
that the objective is clear. And it is easy for us on this side 
of the table to say what we would like to see happen. I do not 
envy you and the other Senators the jobs that you have to do to 
figure out how to make it happen. But I think the goal that you 
have laid out is the right goal. The question is how to get 
there.
    Senator Franken. Thank you.
    Chairman Schumer. Senator Sessions.
    Senator Sessions. Thank you for letting me join you, Mr. 
Chairman.
    During the debate over immigration reform, which I was 
active in and felt the comprehensive bill was not a good piece 
of legislation, the American people agreed with that and it 
failed, and we are not going to see a comprehensive piece of 
legislation like the one last time. If it comes back, it will 
not be like that one.
    And I just have to say to my high-tech friends, you guys 
made a mistake. You endorsed a bill that did little for high-
tech workers, but basically would have undermined the 
lawfulness of our immigration system. And I pleaded with a 
number of you folks, why don't you come forward with a real 
plan to help us focus on higher-skilled workers? And, Mr. 
Smith, you made comments about the United States and said that 
we do not like foreign workers. I am quoting the Canadian who 
was saying that, certainly. But I have consistently endorsed 
the Canadian plan of immigration. I would take it immediately.
    Have you thought about that, proposing that for the United 
States?
    Mr. Smith. Well, I think we would be best served as a 
country, Senator Sessions, if we took what we have today, took 
what works, and then make it better rather than try the 
Canadian one.
    Senator Sessions. Well, that is what I thought. So this is 
a political deal. I know how it worked out. The Canadian system 
gives points. They give points for education. They give points 
for skills. They give points for youth. They give points for 
people who speak English or French. And that is how they allow 
people into the country, and jobs that they need. Would that be 
a good plan for the United States? Would that favor the high-
tech industry? Would it help get us more high-skilled workers 
or not?
    Mr. Smith. Probably not the French part, but the rest, if 
you look at it, I think we would welcome a discussion on any 
option, but----
    Senator Sessions. Well, I would have thought you would 
support that.
    Mr. Smith. No. This is why----
    Senator Sessions. Okay. Why?
    Mr. Smith. This is why: What we really want is labor 
markets that can adapt to changing economic circumstances, and 
the challenge, in our view, with any point system is it 
basically puts the Government in a position where it is trying 
to determine, you know, what, in fact, is going to best meet 
needs in the marketplace. In fact, if you take the U.S. 
system----
    Senator Sessions. Well, you could use that system to do 
that, could you not? Couldn't you alter the points to emphasize 
the skill needs that the country has and not emphasize more 
workers in areas where there is high unemployment?
    Mr. Smith. I am not saying it does not have some virtues. 
The challenge is that basically it asks a Government commission 
or Committee to basically try to manage or even micromanage a 
labor market in a way that takes stock of changes in the market 
itself. And our experience would suggest that----
    Senator Sessions. Well, you would rather be able to do that 
yourself. You would like to be able to handle it. I can 
understand that. I am not sure you are empowered to select what 
workers come into the country. I think that is a governmental 
function, frankly.
    What about the 50,000-person lottery deal? We let hundreds 
of thousands of people apply to be selected as--to be in the 
lottery, and their names are drawn at random. It does not have 
an age factor. It does not have an education factor. I think I 
have talked with Senator Schumer about it. What about 
converting that to a real high-skill, high--tech entry 
mechanism? Would that be something you could support?
    Mr. Smith. Well, I think there is a basis to have a 
conversation about ways to give a higher priority to certain 
fields where there is a clear shortage, and the fields of 
science, technology, engineering, and math clearly rise very 
high on that. And then one can discuss, you know: Is a lottery 
the best way? Is there an alternative approach?
    But I would agree that there is absolutely a kernel of 
something that is worth pursuing.
    Senator Sessions. Well, the INS report a few years ago said 
that H-1B employees are paid a median salary 25 percent less 
than the national median for their field. A 2001 National 
Research Council report found that, ``H-1B workers requiring 
lower levels of high-tech skill received lower wages.'' The 
Independent Computer Consultants Association in 2003 reported 
the use of cheaper foreign labor has forced down the hourly 
rates of U.S. consultants by as much as 10 to 40 percent.
    So I think there are other studies that agree with Dr. 
Hira. I think he is fundamentally right. I mean, I know you 
have different views, and you would like to be able to pick and 
choose around the world, Microsoft would, whoever they would 
like to bring in to help. But we have to set a national policy, 
and we have to decide, first of all, how many can be allowed, 
and this cannot be an unlimited number. And if that is the 
case, we have to choose, and so I thought the Canadian system 
is a good program. It seems to be focused on how to serve the 
Canadian national interest.
    Mr. Smith. I think you raise a really interesting point, 
but I do not think we should obscure the fact that there is 
something in common in what all five of us are saying.
    The principal reason that some people believe that 
employees on an H-1B visa have a disadvantage in negotiating 
for salaries with their employer is their difficulty of taking 
another job. And the principal difficulty they have in taking 
another job is they go to the very back of the green card queue 
and have to start over when their next employer gets the visa 
extension.
    We are advocating reform that would address and eliminate 
that problem. That will be good for employees. Obviously, we 
think it will be good for employers as well. It will be good 
for employment more than anything else.
    Senator Sessions. Well, thank you, Mr. Chairman. That may 
be something that we could all work on, and I look forward to--
--
    Chairman Schumer. Look, I think there are lots of things we 
can work on on this.
    Senator Sessions. I agree.
    Chairman Schumer. Obviously, I prefer comprehensive and I 
am still working that way.
    I am going to take the prerogative of the Chair to ask an 
off-topic question and take advantage of Mr. Greifeld being 
here, and that is this: You know Congress is debating two 
possible solutions to raise the debt limit. There is one 
offered by Speaker Boehner--cannot get away from this.
    [Laughter.]
    Chairman Schumer. There is one offered by Speaker Boehner 
in the House that would raise the debt limit for 5 to 6 months; 
one offered by Leader Reid that would take the prospect of 
default off the table at least until 2013. Would you prefer a 
longer-term solution or a short-term patch? Specifically not 
you personally, but do you think the markets would react better 
to a longer-term solution that at least takes the prospect of 
default off the table for a period of time?
    Mr. Greifeld. Can I say I prefer not to answer the 
question?
    [Laughter.]
    Mr. Greifeld. No, but I would say this, and I did reference 
it in my testimony. Markets certainly want to feel certainty, 
and to the extent there is greater certainty and there is a 
time duration to that certainty, that is more beneficial to the 
markets. So in a general philosophical sense, the longer the 
deal that Congress makes, an agreement with the President, the 
better markets will feel about it.
    Chairman Schumer. Thank you. I appreciate that, and that 
would mean that the Reid deal is preferable to the Boehner 
deal. But you do not have to say that.
    [Laughter.]
    Chairman Schumer. I am drawing that conclusion myself.
    Senator Blumenthal. You have the right to remain silent.
    Chairman Schumer. Yes, with the direct corollary that it is 
longer. Okay. I want to thank the witnesses. This was excellent 
testimony. This is an issue that America aches for reform--we 
do--in this area in particular, because I think there is 
general agreement, even Dr. Hira would say, in certain places 
there is a need to fill skills and get people around the world. 
So it has been very elucidating, and I want to thank the 
witnesses, all of them, for being here--particularly my fellow 
New Yorkers, but no affront to anybody else.
    Thank you.
    Chairman Schumer. Now the second panel will please come 
forward. I want to thank our second panel for being here. We 
are going to try to finish by 12:15 because that is when a vote 
has been called.
    As I mentioned, immigration is an economic engine, 
certainly with highly skilled people who come here and learn 
and want to stay here and create companies and jobs. But people 
forget that even lower-skilled immigrants who come are job 
creators, and our three witnesses today are witness to that 
because in each of the communities they represent, immigration 
has really been a shot in the arm. So I would like to introduce 
all three, and then we will ask them each to speak for 5 
minutes and open it up to questions. We will go from right to 
left this time, not to show any political preference.
    First, Paul Bridges is the mayor of Uvalda, Georgia. That 
is a town in Montgomery County. He is an educator and a farmer 
in his community. He has served as mayor since 2010. About 53 
percent of the land in Uvalda is farmland, and Uvalda is one of 
America's most productive farming communities. Maybe in your 
testimony you can tell us what grows there. Peanuts? I do not 
know.
    Second is my good friend, David Roefaro. He is the mayor of 
Utica, New York. He is a lifelong resident of Utica, where my 
father was raised, so I have special affection for the town. 
And he has been a member of the Utica City School District 
Board of Education and a Common Council representative for the 
city. He serves at Utica's 75th mayor, and I might say serves 
very able as Utica's 75th mayor, a seat he won in November of 
2007.
    And Laurent--Gilbert?
    Mr. Gilbert. Yes.
    Chairman Schumer. Ah, very good. I remember the hockey 
player Rod Gilbert, so I know how to say it. He is the mayor of 
Lewiston, Maine. Before that, he served 25 years on the 
Lewiston Police Department rising through the ranks to chief of 
police, a position he held for 5 years before retiring to 
accept an appointment at the United States Marshal for the 
District of Maine. He is a graduate of the FBI Academy and has 
been appointed so several State criminal justice commissions.
    We will put your entire statements in the record, 
gentlemen, and ask you each to speak for 5 minutes and then be 
available for questions. So we will first start with Mayor 
Bridges.

     STATEMENT OF HON. PAUL BRIDGES, MAYOR, UVALDA, GEORGIA

    Mr. Bridges. Thank you, Chairman Schumer and Subcommittee 
members. Thank you for this opportunity to speak.
    My name is Paul Bridges, and I am mayor of a small town, 
Uvalda, Georgia, which is an agricultural community in 
southeast Georgia. I am also a plaintiff in a lawsuit 
challenging Georgia's new anti-immigration law. I am here today 
to speak about this new law and how it is affecting us in south 
Georgia.
    Uvalda's story is a microcosm of the national debate about 
immigration. Like other States, Georgia passed a law that would 
supposedly address illegal immigration. Among other things, it 
gave local police the power to question residents about their 
immigration status during a traffic stop. It also made it a 
crime to give a ride to an undocumented immigrant if you commit 
another crime as innocuous as having a burnt-out headlight or 
failure to use a turn signal or even to invite an undocumented 
immigrant to stay in your home.
    The reality is this law will not solve the immigration 
problem in the State. It will only devastate local economies. 
It will burden our communities with the cost of enforcing a law 
designed to create a climate of fear. Even though parts of the 
law were blocked by a Federal court, its impact can already be 
seen in my community and other farming communities around 
Georgia. And we have no assurance that that block will hold.
    Uvalda is a small town of about 600 people, but more people 
call themselves Uvaldans because the address reaches into 
adjoining Toombs County. Throughout the Uvalda addresses, there 
are neighborhoods of Latino immigrants. Many of them work on 
the farms. We grow many different crops, Senator Schumer, 
throughout the year, including the Vidalia onions. These crops 
are harvested by skilled migrant laborers who have harvesting 
down to a fine art. The Georgia peaches, strawberries, 
blueberries, and many other fruits and vegetables that they 
harvest ends up on America's dinner tables. We also have a 
multi-million--dollar pine straw industry. These workers who do 
those jobs are a critical part of Georgia's economy. Their work 
helps agriculture to inject $6.85 billion into Georgia's 
economy.
    These workers also contribute to local economies as 
consumers. Every time they buy a good or service, they pay the 
same taxes that I pay. Many of them own their own homes and pay 
property taxes. Their taxes are commingled with my taxes, and 
they are used to pay for schools and public services. The loss 
of their tax revenue will be felt in Georgia.
    Many also file income tax returns on April the 15th, just 
like I do, using a TIN, or a tax identification number issued 
by the IRS.
    In addition to the economic problems this law creates, it 
also puts the workers, as well as anyone associated with those 
workers, directly into the crosshairs. Anyone who looks foreign 
will be under suspicion. Immigrant workers, regardless of 
immigration status, have already left the State rather than 
deal with the racial profiling that this law will encourage. 
They do not want to live with the fear that their family will 
be torn apart because a family member cannot produce the proper 
papers during a traffic stop.
    Now that migrant workers are fleeing Georgia, perfectly 
healthy crops have been rotting in the fields. The Georgia 
Agribusiness Council has already reported that farms have lost 
over $300 million due to the lack of workers. The economic toll 
could reach $1 billion.
    This hits home for many small farms around Uvalda. When 
crops are left in the fields, farmers do not get paid. Some 
fear the inability to repay their loans, even Federal loans. 
They are unable to meet their families' needs, and when they 
have this fear, they also stop contributing to the area's 
economy by buying goods and services. The farms produce less, 
which means that the consumers at the supermarket pay a little 
bit more when the produce actually reaches the marketplace.
    This misguided law hurts Uvalda in another way. It imposes 
a significant burden on our area's resources. It forces local 
law enforcement agencies, with officers untrained in 
immigration, to use its resources to enforce immigration laws. 
It distracts officers from their real mission of protecting 
residents. No family with an undocumented member will dial 911 
in the event of an emergency or need for medical services.
    Also, when officers arrest people for alleged immigration 
violations, they have to house these detainees. They have to 
house the ones who have associated and be arrested with those 
detainees somewhere. Uvalda does not have a jail, nor does 
Montgomery County. We will have to rent space in the jail in an 
adjoining town--another drain on my town's resources. The 
bottom line is that Uvalda, like so many towns dealing with 
these anti-immigration laws, will take a major economic hit and 
will no doubt be less safe as a result.
    There are so many wonderful things about the town of 
Uvalda. It is a friendly place and our residents know each 
other. If a person needs a ride to the grocery store, to the 
church, or to the doctor, I give them a ride. And I do not ask 
for their papers first.
    In the past, when people needed a place to stay, I opened 
my home to them, regardless of their immigration status. I know 
that I am not alone. Other people do the same thing in my area. 
But under this new law, Good Samaritans face fines and jail 
time. Grandparents who have undocumented in-laws become 
criminals if they allow their undocumented in-laws stay 
overnight. Spouses who are citizens become criminals if their 
spouse is undocumented. Citizen children who drive their 
parents to the grocery store become criminals if their parent 
is undocumented. This law threatens the very fabric of my 
little town.
    Many folks have been surprised that a conservative 
Republican like me is involved in a lawsuit against my beloved 
State. It is shocking. But it should not be a surprise. This 
law is not immigration reform. This law is Government intrusion 
of the worst kind. It threatens our economy. It threatens our 
way of life. And it simply makes no sense. Famous Republicans 
like Presidents Reagan and Bush understood immigration. Our 
former Governor, Sonny Purdue, warned incoming Republicans to 
not give in to the ``gang-type mentality that could be harmful 
to those who want the American dream.'' And then after the law 
passed, Governor Purdue also said, ``The GOP needs to ensure 
that people of color and people who are not U.S.-born feel 
welcome.'' I am one Republican who is in good company.
    The Assistant Georgia Attorney General defending this law 
before Judge Thrash in the hearing to determine if the law 
should be blocked said that this law may be unkind, it may be 
unfair. She acknowledged that an 18-year-old citizen driving 
his undocumented mother to the grocery store could be arrested.
    I would like to follow up----
    Chairman Schumer. Mr. Bridges, if you could wrap up.
    Mr. Bridges. Real quick. I would like to follow up on what 
happens to the two children also in the seats, buckled, in a 
10-year-old and 5-year-old, if their older brother is arrested 
and sent to jail for a year and their mother deported.
    I want real immigration reform. We want immigration reform 
now, and we want immigration reform that holds American values 
and fairness and equality. The truth is immigration reform is 
an economic necessity. It is crucial to our National security, 
and our National leaders from both sides of the aisle know it.
    Thank you.
    [The prepared statement of Mr. Bridges appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Mr. Mayor.
    And now my good friend, who does an outstanding job in 
Utica, Mayor Roefaro. I see he is accompanied by his cousin, 
Angelo, who does a good job for me, a great job for me in 
central New York.

   STATEMENT OF HON. DAVID R. ROEFARO, MAYOR, UTICA, NEW YORK

    Mr. Roefaro. Thank you, Senator, and thank you for having 
me here today. I was hoping I did not get this chair. Mr. Smith 
from Microsoft, he did not have a sheet of paper, and he was 5 
minutes to the second.
    Chairman Schumer. Right.
    Mr. Roefaro. So I figured that Microsoft must have 
implanted a chip in him. I would like to thank you for inviting 
me here today, Senator Schumer and Ranking Member Cornyn, for 
inviting me to speak before this Committee today. I would also 
like to thank the members of the Subcommittee for their hard 
work and commitment to fixing and reforming our Nation's 
immigration policy. The work in front of this Subcommittee has 
the potential to leave a lasting legacy for our country.
    Many years ago, my family lived in Italy. They struggled 
for jobs and economic opportunity. Seeking a better life, they 
came to America, where the streets were paved with gold and 
there was a chicken in every pot.
    When they came to our country, my family sought a community 
that would give them those opportunities. They chose the 
beautiful city of Utica, New York. After coming to Utica, they 
laid roots, raised a family, established a small business, and 
became an active part of the city. They had the opportunity to 
live the American dream.
    Today that simple dream is threatened. The dream of so many 
to come to America and find the streets paved with gold has 
become vulnerable to fear. In times of economic downturn, like 
our country now faces, we begin to fear that
    which we do not know. And many choose to point the blame 
for our economic problems on immigrants. But to deny those who 
want to come to America and create a new life for themselves 
would be to deny our own history. Our country was built on the 
backs of immigrants. From the young Irishmen who built the Erie 
Canal across New York to the Bosnian families seeking political 
refuge and starting small businesses in Utica today, immigrants 
have been the key to our past success and will serve as a 
catalyst to both Utica's and certainly our Nation's future.
    But do not mistake my words: While immigration is crucial 
to the social and economic fabric of our country, we need to 
work harder to ensure it is done legally. We need to make sure 
our borders are secure. We need to make sure our communities 
are safe and criminals are off the streets.
    As the mayor of Utica, I have spent the last 4 years trying 
to make life better for those who live in my city. One of my 
top priorities has been to help refugees assimilate, offer them 
a stake in our city, and show them how they can assist us in 
growing our local economy and creating jobs--all things I have 
worked to accomplish.
    We have benefited from the recently welcomed immigrants 
from Bosnia, Belarus, Russia, Somalia, the Dominican Republic 
and Vietnam. Groups like this enjoy assistance from our local 
refugee center, a center that has helped transition so many. In 
my city, there are 42 languages spoken in our Utica school 
district, and centers like the Mohawk Valley Refugee Center 
help connect the dots for immigrants. So no matter how you say 
it, ``We're in this together'' is the motto everyone lives by.
    Yes, our economic growth is tied directly to how we as 
Nation utilize the talent of immigrants, and there are 
statistics to back those words up. Nationwide, cities with 
growing immigrant populations have the fastest economic growth. 
Immigrants, by making our economy more productive, contribute 
over $37 billion to the wages and output of native-born 
Americans. And we have already heard that between 1995 and 
2005, 25 percent of all high-tech startups were founded by 
immigrants. These new Americans paid over $162 billion in 
Federal, State, and local taxes, proving their worth to our 
communities.
    In Utica, economic success stories mirror national ones. 
Take Zaim Dedic, for example. Zaim came to Utica at the age of 
14 from Mrkonjic Grand, a small town in the Serb Republic. 
Today, at 31, he has built himself a successful business. He is 
the founder and owner of Multilingual Interpretation Services, 
a translation firm that helps new immigrants navigate 
hospitals, the courtroom, practically anywhere, as they learn 
English for themselves. Zaim boasts eight independently 
contracted employees, but that is not all. Aside from his 
translation business, Zaim has worked to revitalize an 
important downtown block called Bleeker Street. He has invested 
thousands into a high-end nightclub there. He employs staff and 
contributes to the revitalization of a block my administration 
made priority No. 1.
    Then there are the ever increasing immigrants from the 
Dominican Republic who are opening and expanding businesses in 
my city. For example, Joel's Spanish Restaurant has been a huge 
success for 5 years and keeps on growing strong, and they are 
going to be moving to our West End very shortly in our city. 
That means more great food and more jobs.
    Moving forward, it is important that we all work together 
to create an innovative solution to immigration reform. For 
those who are here in our country illegally, we must create a 
path for them to become citizens. Through a tough but fair 
process including security checks, payment of back taxes, and 
an educational requirement to learn English, we can begin to 
assimilate now-illegal immigrants into our country and 
cultivate their economic potential.
    Moreover, my experience as a mayor working on national 
issues has showed me how this issue, this debate, is likely one 
of the most important facing our Nation. I proudly profess our 
immigrant populations have added to the vibrancy of the city of 
Utica. Their presence has been vital to our housing stock, our 
culture, our regional economy, and even our local agriculture. 
Certainly, their presence remains crucial to the development 
and growth in every part of upstate New York. The national 
importance of this issue is why I am a proud member of the 
Partnership for a New American Economy, joining my mayors right 
here and representatives from Microsoft and NASDAQ on this 
morning's previous panel and over 300 other mayors and business 
leaders from across the country who know that smarter 
immigration will generate economic growth and create new 
American jobs.
    As we go forward in this process and create a new 
immigration policy for our country, we need to remember our 
heritage--the reason we all sit here today. We are a Nation of 
immigrants, and we must preserve this legacy into our future. 
When my own family came to America, they came in search of a 
better tomorrow. It is my hope that we can ensure another 
generation of immigrants come to this country accepted, 
assisted, and empowered to dream the never impossible dream.
    I appreciate the opportunity to address you today, and I 
will gladly answer any questions that you may have. Thank you, 
Senators.
    [The prepared statement of Mr. Roefaro appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Mayor Roefaro. Your chip was 
not quite as good as the person who sat in the seat before you, 
but not bad.
    [Laughter.]
    Chairman Schumer. Mayor Gilbert.

  STATEMENT OF HON. LAURENT F. GILBERT, MAYOR, LEWISTON, MAINE

    Mr. Gilbert. Chairman Schumer, Senator Blumenthal, thank 
you for the opportunity to speak with you today on the benefits 
of immigration reform for renewing America's communities. I am 
currently serving as the mayor of the All-America city of 
Lewiston, Maine, a designation awarded in 2007 by the National 
Civic League for our civic engagement. As my biography will 
attest, my lifelong career has been in law enforcement until my 
election as mayor in 2007.
    I am a first-generation American and son of French Canadian 
immigrants. My first language was French. At the age of 10, our 
family moved to southern California. While in school, I had a 
great many Mexican American friends. As a son of immigrants, I 
could relate to my Mexican American classmates. I would at 
times trade my sandwich with a Mexican American student for his 
burrito--something I continue to love to this day.
    Somali refugees started arriving in Lewiston in 2001 to 
seek a quality of life they could not find or afford in major 
larger cities. Word of mouth to friends and relatives outside 
of Maine led more secondary migrants to Lewiston, a city and 
State that are statistically one of the safest in the country 
and where these families and their children can receive a good 
education.
    As the refugee population started to grow in Lewiston, a 
number of opinions about the new refugee arrivals were 
expressed both privately and publicly as fear, and in many 
cases prejudice fueled the public and sometimes political 
discussion about Lewiston's ``new Mainers.''
    An open letter to the Somalis requesting that they reduce 
their numbers coming into the city was picked up by the 
national and international media, whose coverage also caught 
the attention of a national hate group. Those this hate group 
attracted few supporters to their event, the group's arrival in 
Lewiston was met by some 5,000 demonstrators who supported our 
new refugee immigrants.
    Though there was measurably more public, State, nonprofit, 
academic support for refugees following the Lewiston rally, 
rumors and misguided myths about refugee funding, cultural and 
religious customs, and employment persisted.
    Concerns about refugee employment were driven by 
observations that more refugees were not seen in the local 
workforce. In the recently published book, ``Somalis in Maine: 
Crossing Cultural Currents,'' Deputy City Administrator Phil 
Nadeau's research showed that refugee employment levels had 
been steadily declining since 2006. Nadeau postulated that the 
combination of higher levels of overall unemployment and the 
significant underfunding of workforce training for many 
limited-English-speaking adults will continue to fuel refugee 
unemployment until current Federal refugee policy addresses 
workforce readiness. Our city's opinion of the inadequacy of 
the existing refugee resettlement program in the U.S. was 
recently echoed in a July 21, 2010, report to the U.S. Senate 
Committee on Foreign relations entitled ``Abandoned Upon 
Arrival: Implications for Refugee and Local Communities 
Burdened by a U.S. Resettlement System That Is Not Working.''
    In my opinion, though we have grave concerns regarding 
refugee resettlement programs, there are signs that our 
immigrant population is having a positive impact on the social 
fabric of our community and our local economy. They purchase 
groceries, clothing, cars, along with a number of other goods 
and services. They keep the dollars circulating locally and are 
beginning to weave themselves to a great degree into the 
community.
    Most exciting is the energy of our immigrant entrepreneurs 
who are bringing new life to our downtown. Over a dozen 
immigrant-owned businesses occupy formerly vacant storefronts 
over a two-block area. The businesses include general 
merchandise markets, specialty foods and good, restaurants, 
coffee shops, tax preparation services, translation services, 
and clothing stores, as well as starting up cab companies.
    The road to full assimilation into American culture and 
economic self-sufficiency is not easy, but with perseverance 
and support it will continue to happen. The question is whether 
we choose to let this be a process requiring several 
generations to occur or do all that we can to move the process 
forward more quickly.
    As mayor of my city, my work with the League of United 
Latin American Citizens in support of the DREAM act and the 
Partnership for a New American Economy has convinced me that 
sensible immigration and refugee resettlement reform today will 
spur the economy, the economic growth, and independence that 
every American can support.
    In conclusion, I appreciate the interest of the Chairman 
and Mr. Blumenthal and members of the Committee who will 
receive this report to share Lewiston's newest chapter in our 
ongoing immigrant story. I believe that the Committee's and 
Congress's continued involvement with immigration reform and 
the need for significant refugee resettlement reform is 
critical to the future success of a refugee resettlement 
program whose primary mission is economic self-sufficiency.
    I thank you for the opportunity to speak to you today, and 
I certainly remember Rod Gilbert, No. 7 for the New York 
Rangers.
    [The prepared statement of Mr. Gilbert appears as a 
submission for the record.]
    Chairman Schumer. Thank you. And you are as good in what 
you do as he was in what he did, so thank you for being here.
    I am going to call on Mr. Blumenthal first--I will excuse 
myself for a brief minute--to ask questions; then I will come 
back and ask questions. Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman, Senator 
Schumer, and thank you all for your very moving and inspiring 
testimony here today. It has been really very instructive to 
hear your firsthand experiences, and I want to thank each of 
you for your public service in your communities, your 
longstanding public service even before you became mayor in 
each of your towns and cities. And thank you, Mayor Gilbert, 
most especially for your career in law enforcement and your 
service to the United States in the United States Army. And let 
me begin with a question to you, if I may.
    Have you noticed a change in attitude in Lewiston since the 
time when there was that outpouring of opposition based on 
stereotypes and misapprehension?
    Mr. Gilbert. I certainly have, Senator. You know, the dust 
has really settled over the 10-year period. More and more 
people are interacting. The children are now in the schools. 
They are playing on sports teams. They are visiting each 
other's families, and they are seeing that what people feared 
initially was really myths that were being perpetuated and so 
on.
    We always have a tendency as immigrants that once I am in, 
I shut the door behind me. And it has been that way in 
Lewiston. Before that it was the Irish who first arrived, and 
their first Catholic Church was burned. The Ku Klux Klan was in 
Maine as well and were opposed to Catholics. Certainly when the 
French Canadians arrived, the Irish tended to want to shut the 
door behind them. And now the Franco-Americans are the same 
way.
    But I think time has a way of healing any abrasions that 
people may have at newcomers, and now, if I may, I would like 
to introduce into the record this Lewiston Auburn Magazine, the 
current issue, and it says, ``Dreaming with Deco: The growing 
and thriving Somali business. Business community helps renew 
our Lisbon Street.'' And, also, a story that appeared, to 
answer your question, Senator, on the ``CBS Evening News,'' a 
clip dated April 11, 2009, on the Somali assimilation in 
Lewiston. And then, last, a senior project by a student from 
the College of the Atlantic called ``Newcomers.'' I have 
submitted that, four copies.
    Senator Blumenthal. Without objection, we will allow all 
those exhibits to be in the record.
    [The information appears as a submission for the record.]
    Senator Blumenthal. Let me turn to Mayor Roefaro, if I may, 
and thank you for your leadership in Utica, not only in public 
service but as a member of the Funeral Directors Association, I 
know of your longstanding involvement in the community. I 
wonder what you have done as mayor, as a community leader, to 
educate about the advantages of immigration, about the impact 
on the fabric and economy of your community and in favor of the 
reforms that you have suggested this morning.
    Mr. Roefaro. Well, in our community, like my fellow mayor 
here, change is always difficult and acceptance is difficult. 
And we actually tried to change that perception, and we have 
done that over the last 3\1/2\ years that I have been mayor. 
And I find that the immigrant population that has come really 
does not ask you for anything. They just want to be accepted. I 
will give you an example.
    The Bosnian community, they needed a place of worship, and 
we had an old church behind our City Hall, and we had somehow 
ended up with that church. And before I became mayor, they were 
going to tear down this church to the tune of about $1 million. 
We ended up selling this church to the Bosnian community for 
$1,000, and the day that we closed on that, they had probably 
75 to 80 workers stripping the roof, doing all kinds of work, 
and this church was 4 feet underwater. They wanted a place of 
worship, and they made it their mosque. Today it is one of the 
leading mosques in the whole area between, you know, Syracuse 
and Albany and Rochester. And all they wanted was a place of 
worship.
    When it was first going up, there was talk, you know, and 
people would really say, ``What is it?'' They did not 
understand it. They did not understand the Muslim faith. They 
just thought that they would stereotype it.
    Well, these people have been so integrated into our system 
now that they have become prominent people in our 
administration. I have my deputy engineer who is a Bosnian. I 
have a fellow that runs our urban interagency that is a Bosnian 
fellow. We have so many that are now opening businesses and 
that are really becoming really part of the community because 
we welcomed them into this community, and they showed what they 
are all about, instead of just being in the background.
    So we are bringing it to the light, and, you know, we have 
a Buddhist temple there, also. So I go to them. I do not wait 
for them to come to me. I go to them.
    Senator Blumenthal. That is a very powerful story, and I 
want to thank you and Mayor Bridges as well for your leadership 
by opening your home. I do not know how many times you have 
done that, but that is truly impressive, and thank you very 
much for being here as well.
    My time has expired. Thank you, Mr. Chairman.
    Chairman Schumer. Thank you, Senator Blumenthal.
    I would like to first just follow up with Mayor Roefaro. 
The Bosnian community, as I understand it, has 6,000 people or 
so in Utica. They have revitalized the downtown. The economy is 
better. Job creation numbers in Utica are considerably better 
than in many of the other areas because of immigrants, and the 
Bosnian community being the largest. Tell us, how did the 
Bosnian--just give us a little more. You mentioned one 
immigrant from that community and now the church. But give us a 
little more history. How did they come? How has the community 
grown? Give us some context and texture as to how the Bosnian 
community did for your city what the Somalian community did for 
Mr. Gilbert's city?
    Mr. Roefaro. Right. Well, the first Bosnian I think came 
about 20 years ago, and they came to the refugee center in 
Utica. We have a very big refugee center in the city of Utica. 
And the Bosnian population has really--they are probably the 
oldest immigrant population that has come in most recent years 
to Utica. They have really assimilated into our city very well. 
They came into--you know, they are contractors. They are 
craftsmen. They have become part of the fabric of Utica. So 
many have opened businesses--restaurants. There is a restaurant 
probably on every corner, and they are all busy. They have 
great food. They actually have become part of our system where 
I say that they will become the leaders of tomorrow. You will 
have a mayor that will be Bosnian eventually in the city of 
Utica. You will have leaders--and we are trying to get--there 
are some running for our Common Council right now. So we are 
trying to integrate them into our system to make them part of 
our system because they are like my ancestors when my father 
came over. My father was born in Italy. When they came over, 
they needed someone to show them the way. But once they were 
shown the way----
    Chairman Schumer. What made them choose Utica?
    Mr. Roefaro. Well, the Srebrenica massacre, which I spoke 
about a year ago in Syracuse, New York, the exodus of the 
Srebrenica massacre for the Bosnian population, they----
    Chairman Schumer. What made them choose Utica as opposed to 
another place?
    Mr. Roefaro. You know, there is only one other city--and I 
do not know whether it is Minneapolis or--I cannot remember 
where it is, but I think it is the refugee center how they got 
here. That was long before my time. But I did a little bit of 
history, and our refugee center really brought most of them in.
    Chairman Schumer. And what are the other large immigrant 
communities in the city of Utica?
    Mr. Roefaro. We have Somali, Vietnamese, Dominican 
Republic. We really are a melting pot.
    Chairman Schumer. And have the people who have lived in 
Utica a long time who are not immigrants seen this as an 
economic shot in the arm for the city?
    Mr. Roefaro. Absolutely. When I talk to people out in the 
community, they actually are thankful that the Bosnian 
community came and all the other communities come because we 
had--like the Lower East End of our city of Utica, the Bosnian 
community has come in, and they do not just buy one house. 
Their families come, and they buy blocks at a time, and they 
have really restructured those blocks, and they have redone the 
houses that were falling apart. They have taken them, put them 
back on the tax rolls, and they have made them beautiful.
    They have this technique that they use, it is like a 
stucco, and so everything that they do is beautiful.
    Chairman Schumer. Now Reader's Digest, didn't they call 
Utica the ``Second Chance City'' because of this?
    Mr. Roefaro. Yes, they did.
    Chairman Schumer. And let me ask you, Mayor Gilbert, the 
same thing? Do the people who have lived in Lewiston for 
generations see the Somalian community as an economic shot in 
the arm, as a real help to the community?
    Mr. Gilbert. Certainly.
    Chairman Schumer. How many Somalians are there in Lewiston?
    Mr. Gilbert. About 4,000, and the population of the entire 
is about 37,000. Then across the river we have our twin city of 
Auburn with about 1,000 Somalis.
    You know, this is an old textile city where the mills were 
emptied and so on. And so consequently. the downtown, there 
were empty storefronts, and now they are occupying a couple of 
city blocks of Somali businesses, and they are doing well. They 
are starting to buy homes and providing various services. So 
they are adding to the economic well--being of the community 
because we had all of this housing, available housing, from the 
people who used to work in our mills and so on and have moved 
elsewhere or have died off. And so we had this available 
housing. Now they are filling these apartments, these four- or 
five-story tenement buildings where, if they were not there, I 
wonder where we would be. And certainly landlords benefit, car 
dealers benefit, and so on.
    I think they are seeing the benefit of that, and any 
differences that there were, these things are settling down. 
And so I see it as positive.
    Chairman Schumer. And, finally, to Mr. Bridges, Mayor 
Bridges, you have mentioned how the farmers really depend on 
immigrants and crops are not getting picked, et cetera. What 
does the community think? And the city represents the 
surrounding area for people who are not farmers, the tradesmen 
and teachers and cops and firefighters, do they see the 
economic harm that is happening because of Georgia's law? Do 
they join you in opposing the law? Is that true in many of the 
agricultural regions of Georgia as well?
    Mr. Bridges. It is true throughout Georgia. From everyone I 
have spoken with--and I have spoken with several mayors as 
well--we are recognizing the detriment that this law is causing 
throughout the States. Teachers do not have any problems at all 
teaching migrant children. In fact, it is a challenge that many 
of them embrace. The entire State of Georgia welcomes the 
immigrants and their contribution economically and socially.
    There are some people who are anti-immigrant who are very 
loud in what they have to say, but we do embrace the 
immigrants, and we recognize their contribution and their hard 
work that they do to provide the vegetables and the fruits for 
our tables.
    Chairman Schumer. Right. Well, I want to thank all three of 
our witnesses here. They have shown there are different sides 
to immigration. We need high-tech workers. Microsoft needs 
them, Lockheed Martin in Syracuse needs high-tech workers, 
cannot find them. But we also have immigrants who come who do 
not have the high skills. In both cases, in Bosnian and 
Somalian, they came because they were refugees, because of war 
that tore their countries apart. And yet they produce real 
economic growth and real economic activity as your two cities 
exemplify, and, of course, we all know the economic dependence 
our farmers have. Throughout upstate New York, our farmers are 
always telling me how much they depend--they cannot get native-
born Americans to pick the crops and do the farm work, and they 
depend on immigrants.
    So the point we are making here today, hopefully, is that 
immigration is an economic engine and we need immigration. And, 
you know, Senator Cornyn mentioned high unemployment. There is 
high unemployment, and certainly we do not want our immigration 
laws to have immigrants displace or take away jobs from 
Americans. That tends to happen more in illegal immigration 
than in legal immigration. And what we are trying to do with 
comprehensive reform is stop the flow of illegal immigration, 
rationalize the policy of legal immigration so that we can 
benefit in terms of jobs up and down the line. And I think all 
eight witnesses today at our hearing have shown that.
    I very much appreciate, gentlemen, your time and effort, 
and so the hearing is now concluded. Again, I want to thank all 
of our witnesses. I want to ask unanimous consent to put the 
statements in the record of Chairman Leahy, who is very 
supportive of our hearing, as well as the following groups that 
are supporting basically our thrust to get immigration reform: 
the Chamber of Commerce, Compete America, Intel, the American 
Council on International Personnel, the Partnership for a New 
American Economy, the United Agribusiness League, Conservatives 
for Comprehensive Immigration Reform, IIUSA, Third Way, 
Lutheran Immigration and Refugee Service, and the U.S. Hispanic 
Chamber of Commerce. They have all submitted statements, and I 
am going to ask unanimous consent that their statements be 
added to the record.
    [The statements appears as a submissions for the record.]
    Chairman Schumer. Without further ado, again, thanking our 
witnesses, the hearing is adjourned.
    [Whereupon, at 12:21 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.] 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
